App. 1
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
-----------------------------------------------------------------------

N.E.L.; M.M.A.; E.M.M.,
Plaintiffs - Appellants,
v.
MONICA GILDNER;
ANGELA WEBB;
TINA ABNEY,

No. 18-3059
(D.C. No. 2:17-CV02155-CM-JPO)
(D. Kan.)

Defendants-Appellees.
-----------------------------------------------------------------------

ORDER AND JUDGMENT*
-----------------------------------------------------------------------

(Filed Jun. 25, 2019)
Before BACHARACH, PHILLIPS, and EID, Circuit
Judges.
-----------------------------------------------------------------------

Kansas child-and-family-services employees obtained an ex parte order from a Kansas state court to
* After examining the briefs and appellate record, this panel
has determined unanimously that oral argument would not materially assist in the determination of this appeal. See Fed. R.
App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore ordered submitted without oral argument. This order and judgment
is not binding precedent, except under the doctrines of law of the
case, res judicata, and collateral estoppel. It may be cited, however, for its persuasive value consistent with Fed. R. App. P. 32.1
and 10th Cir. R. 32.1.

App. 2
take ten minor children, including plaintiffs, into immediate physical custody. They then arranged with
Colorado authorities to execute the Kansas custody order in Colorado, where the children were temporarily
located. Plaintiffs N.E.L. and M.M.A. later sued both
Kansas and Colorado officials under 42 U.S.C. § 1983
in the United States District Court for the District of
Colorado.
The District of Colorado determined it lacked personal jurisdiction over the Kansas defendants and
transferred the case against them to the United States
District Court for the District of Kansas. The District
of Kansas denied a motion to re-transfer the case to the
District of Colorado, granted the defendants qualified
immunity, and dismissed the case. Plaintiffs appeal the
dismissal and the denial of their motion to re-transfer
to Colorado. Exercising jurisdiction under 28 U.S.C.
§ 1291, we affirm.
BACKGROUND
In a related appeal, we affirmed the District of Colorado’s order dismissing the plaintiffs’ first amended
complaint against the Colorado defendants. N.E.L. v.
Douglas Cty., 740 F. App’x 920, 922-27, 934 (10th Cir.
2018), cert. denied, 139 S. Ct. 1320 (2019) (N.E.L. I). After those defendants were dismissed and the action
against the Kansas defendants was transferred to the
District of Kansas, plaintiffs filed their operative second amended complaint (SAC). The SAC added an additional plaintiff (E.M.M.) and two additional claims.

App. 3
We detailed plaintiffs’ factual allegations at length
in N.E.L. I. See id. at 922-26. We need not repeat that
discussion here. Essentially, plaintiffs contend that
the defendants obtained ex parte orders of protective
custody from a Kansas court based on omissions and
misrepresentations, then acted in concert with the
Colorado defendants in wrongfully executing the orders, resulting in plaintiffs’ removal from Jane Doe’s
custody and their temporary placement in state custody.
The SAC includes claims for unlawful seizure in
violation of the Fourth Amendment, unlawful detention in violation of the Fourth Amendment, deprivation
of familial association in violation of the Fourteenth
Amendment, conspiracy to deprive plaintiffs of their
constitutional rights, exemplary damages, deprivation
of the right to travel, and malicious prosecution and/or
abuse of process. The district court granted the defendants qualified immunity on all claims.
“A motion to dismiss based on qualified immunity
imposes the burden on the plaintiff to show both that
[1] a constitutional violation occurred and [2] that the
constitutional right was clearly established at the time
of the alleged violation.” Doe v. Woodard, 912 F.3d 1278,
1289 (10th Cir.), cert. denied, 2019 WL 1116409 (U.S.
May 20, 2019) (No. 18-1173) (internal quotation marks
omitted). In deciding the qualified immunity question
the district court considered not only the allegations of
the SAC but also documents the defendants provided
in support of their motion to dismiss. It determined
the uncontested facts in these documents showed that

App. 4
“[m]ost of the claimed ‘misrepresentations and omissions’ set forth in [the SAC] are refuted . . . or are not
material.” Jt. App., Vol. II at 206. The district court concluded based on the uncontested factual allegations in
the Child in Need of Care (CINC) petitions “combined
with the parents’ post-petition conduct, it would be
reasonable for an official to believe an ex parte order of
protective custody was justified.” Id. at 207. On appeal,
the plaintiffs argue that (1) the district court construed
their complaint too narrowly and failed to address the
defendants’ actions taken in conspiracy with the Colorado defendants to unlawfully execute the ex parte
orders; (2) the district court erred in deferring to the
defendants’ judgment; and (3) clearly established law
prohibited the Kansas defendants from seizing plaintiffs from a private home without a warrant, a valid
court order, exigent circumstances, or consent. They
also argue the district court clearly erred by failing to
re-transfer their case to the District of Colorado.
DISCUSSION
1. Grant of Qualified Immunity
“We review de novo the grant of a motion to dismiss under Rule 12(b)(6) due to qualified immunity.”
Doe, 912 F.3d at 1288. “At the motion to dismiss stage,
it is the defendant’s conduct as alleged in the complaint that is scrutinized for objective legal reasonableness.” Id. (brackets and internal quotation marks
omitted).

App. 5
A clearly established right “should not be defined
at a high level of generality.” White v. Pauly, 137 S. Ct.
548, 552 (2017) (per curiam) (internal quotation marks
omitted). Instead, “the clearly established law must be
particularized to the facts of the case.” Id. (internal
quotation marks omitted). Although plaintiffs need not
cite “a case directly on point for a right to be clearly
established, existing precedent must have placed the
statutory or constitutional question beyond debate.”
Kisela v. Hughes, 138 S. Ct. 1148, 1152 (2018) (per curiam) (internal quotation marks omitted). “A clearly
established right is one that is sufficiently clear that
every reasonable official would have understood that
what he is doing violates that right.” Mullenix v. Luna,
136 S. Ct. 305, 308 (2015) (per curiam) (internal quotation marks omitted).
A. Execution of Ex Parte Orders
Plaintiffs argue the district court erred by discussing only the defendants’ conduct in seeking the ex
parte orders and ignoring plaintiffs’ claims concerning
the execution of those orders and their subsequent detention. We need not decide whether the district court
failed to fully and individually discuss plaintiffs’ execution- and detention-related claims, because we may
affirm on any basis supported by the record, see Richison v. Ernest Grp., Inc., 634 F.3d 1123, 1130 (10th Cir.
2011), and we elect to do so here.
In N.E.L. I, we determined the Colorado defendants (a social worker and deputy sheriff ) were entitled

App. 6
to qualified immunity in connection with plaintiffs’
claims that they “failed to first register the ex parte
Kansas order with a Colorado court as required by the
Colorado UCCJEA, entered Dr. and Mrs. G’s home
without a warrant, and illegally seized [the children],”
740 F. App’x at 929; “relied on the facially invalid Kansas ex parte order to enter the home,” id.; “deprived
[N.E.L. and M.M.A.] of their Fourteenth Amendment
right to familial association by requiring Mrs. Doe to
leave Dr. and Mrs. G’s home[,] by prohibiting N.E.L.
and M.M.A. from leaving with Mrs. Doe[,] by prohibiting N.E.L. and M.M.A. from traveling with Mrs. Doe,
Mr. Doe, and their grandparents[,] and by detaining
N.E.L. and M.M.A. for the purpose of terminating Mr.
and Mrs. Doe’s parental rights,” id. at 931; and conspired to violate N.E.L. and M.M.A.’s Fourth Amendment and Fourteenth Amendment rights, see id. at 931
n.22. We reasoned plaintiffs failed to show the alleged
actions violated clearly established law. See id. at 92931.
Likewise, the Kansas defendants are entitled to
qualified immunity on plaintiffs’ seizure and detention-related claims in this case, because plaintiffs have
failed to present clearly established law that supports
their Fourth and Fourteenth Amendment claims. For
substantially the reasons stated in N.E.L. I, we affirm
the dismissal on qualified-immunity grounds of plaintiffs’ claims relating to the execution of the ex parte
orders and plaintiffs’ resulting detention.

App. 7
B. Lawfulness of CINC Petitions and
Ex Parte Orders
Plaintiffs also attack the lawfulness of defendants’
conduct in filing the CINC petitions and obtaining the
ex parte orders. They contend defendants misrepresented or omitted facts to create the impression there
was probable cause to believe that plaintiffs met the
definition of “children in need of care” and were in immediate danger. See SAC ¶ 213, Jt. App., Vol. II at 49
(internal quotation marks omitted). “[G]overnment officials’ procurement through distortion, misrepresentation and omission, of a court order to seize a child is
a violation of the Fourth Amendment.” Malik v. Arapahoe Cty. Dep’t of Soc. Servs., 191 F.3d 1306, 1316 (10th
Cir. 1999) (citation and internal quotation marks omitted).1
But plaintiffs must show the alleged omissions
and misstatements were “so probative they would vitiate probable cause.” Id. (internal quotation marks
1

Plaintiffs argue the district court’s conclusion that “it
would be reasonable for an official to believe an ex parte order
of protective custody was justified,” Jt. App., Vol. II at 207, contradicts its earlier findings that (1) “the allegations in the [SAC]—
that defendants sought the ex parte order[s] knowing there was
no emergency and knowing they were omitting and misrepresenting relevant facts—[establish that they] violate[d] clearly established Tenth Circuit law,” id. at 200, and (2) no travel restrictions
prohibited plaintiffs’ travel to Colorado. Assuming these district
court findings are contradictory, we are not bound by them in conducting our de novo review. Cf. Brokers’ Choice of Am., Inc. v.
NBC Universal, Inc., 861 F.3d 1081, 1104 (10th Cir. 2017) (“[W]e
need not address . . . alleged errors regarding the district court’s
analytical tools because our review is de novo.”).

App. 8
omitted). “[W]e measure probable cause by (1) removing any false information from the [document supporting a probable cause determination], (2) including any
omitted material information, and then (3) inquiring
whether the modified [document] establishes probable
cause.” Patel v. Hall, 849 F.3d 970, 982 (10th Cir. 2017)
(addressing claim that arrest warrant included false
information and/or omissions that vitiated probable
cause); cf. Snell v. Tunnell, 920 F.2d 673, 698 (10th Cir.
1990) (discussing evaluation of probable cause in context of “judicial deception” claim involving social workers’ investigation).
(1) Reliance on Matters Outside Complaint
As an initial matter, plaintiffs complain the district court improperly relied on matters outside the
SAC without converting the motion to dismiss to a motion for summary judgment and without giving them
notice and an opportunity to present evidence in opposition to the “summary judgment” motion. “Generally,
a district court can consider . . . materials [outside a
complaint] only by converting the motion to dismiss to
a motion for summary judgment.” Lincoln v. Maketa,
880 F.3d 533, 537 n.1 (10th Cir. 2018). But a district
court may consider indisputably authentic documents
that are central to the plaintiff ’s claim and referred to
in the complaint without converting the motion to one
for summary judgment. Pace v. Swerdlow, 519 F.3d
1067, 1072-73 (10th Cir. 2008). “We review for abuse of
discretion a district court’s refusal to convert a Rule

App. 9
12(b)(6) motion to dismiss into a Rule 56 motion for
summary judgment.” Brokers’ Choice of Am., Inc. v.
NBC Universal, Inc., 861 F.3d 1081, 1103 (10th Cir.
2017).
Here, the district court considered the outside documents after concluding there was no dispute as to
their authenticity, plaintiffs had referred to them in
the SAC, and the facts in these documents were central
to plaintiffs’ claims. Plaintiffs fail to show it abused its
discretion in doing so.
Plaintiffs argue that even if they conceded the
authenticity of the outside documents, they did not
agree that the records’ contents were true. They accuse
the district court of using the CINC petitions to refute
the facts they specifically pled in the SAC. The district
court noted that plaintiffs had raised no challenge to
the underlying facts in the CINC petitions. Jt. App.,
Vol. II at 202 (“[W]hile plaintiffs allege the CINC petitions were not based on probable cause, they have not
contested the facts in the CINC petitions.”). Although
plaintiffs now purport to dispute the underlying facts
in the petitions, their generalized assertions about the
source of defendants’ knowledge of certain facts or the
conclusions to be drawn from these facts fail to present
any significant challenge to the specific underlying
facts themselves.
(2) Probable Cause
The factual challenges plaintiffs raise are insufficient to show that defendants sought the CINC

App. 10
petitions without probable cause, relying on known
falsehoods and omissions, in violation of clearly established law. The facts as summarized by the district
court provided probable cause for filing the CINC petitions. Plaintiffs’ claims of misrepresentations or omissions are insufficient to demonstrate otherwise.
That brings us to the heart of plaintiffs’ claim: that
defendants lacked probable cause to believe that plaintiffs were in immediate danger when they sought ex
parte orders. According to plaintiffs, the motion for the
orders, filed by an assistant district attorney at defendants’ behest, falsely stated to the court that an emergency existed because the family had fled the state
of Kansas. In their opening brief, plaintiffs make six
arguments why the motion and/or orders were not supported by probable cause, and were based on alleged
false statements and omissions made to the issuing
court: (1) a non-emergency hearing had been set on the
CINC petitions, (2) the CINC petitions did not prohibit
them from traveling, (3) defendants were aware of
their precise location in Colorado, (4) defendants had
no reason to believe they were in immediate physical
danger, (5) the Does had not refused to participate in
family preservation services, and (6) plaintiffs ultimately prevailed in the CINC proceeding when the
judge found no probable cause to remove them from
their parents. None of these challenges establishes
that defendants proceeded without probable cause in
violation of clearly established law.
First, the CINC court presumably was aware of its
own docket and the fact that a non-emergency hearing

App. 11
had been set. The omission of that fact did not conceal
a lack of probable cause.
Second, the failure to mention that the CINC petitions lacked travel restrictions was not a significant
omission. The gist of the motions was that the Does
had left the state soon after the initiation of CINC
proceedings and shortly before a scheduled hearing.
This timing-related concern remained valid regardless
of whether the plaintiffs were subject to express travel
restrictions.
Third, the CINC filings did not state that the children’s whereabouts were unknown. In fact, the motion
for ex parte orders acknowledged that the Does’ food
stamp card was used in Littleton, Colorado on May 2,
2009. This is consistent with the representation in the
SAC that the defendants “had information that the
Doe family was in Littleton, Colorado as of May 2,
2009.” Jt. App., Vol. II at 28 ¶ 99.
We note the SAC further alleges that when they
sought the ex parte orders, defendants knew the “precise” address where the children were located. Id. at
29-30 ¶ 108. Given this alleged fact, defendants’ representation in the motion that they merely knew locations where the Doe family’s food stamp card had been
used in Colorado may seem disingenuous. But disingenuousness is not enough. We must ask whether inclusion of the precise address where the plaintiffs were
staying would have vitiated probable cause. Again, the
core concern was that the children had been removed
from the state after the initiation of CINC proceedings

App. 12
and shortly before a scheduled hearing, not whether
their precise location was known.2
Fourth, although defendants may not have had a
basis to be concerned about plaintiffs’ physical safety,
for the reasons we have stated they did have a concern
about their mental well-being. This concern formed the
basis for the underlying petitions and the asserted
emergency.
Fifth, the motion requesting ex parte orders asserted that family preservation services had been offered and that John Doe indicated he was willing to
participate in the services. The motion did not state
that the Does had rejected such services. To the extent
the ex parte orders could have created a misleading
impression by stating only that such services had been
offered, without disclosing Mr. Doe’s willingness to accept them, this did not vitiate probable cause. The
court found both that reasonable efforts had been
made to avoid removal of the children from their home,
and that such reasonable efforts were not required because an emergency existed. Mr. Doe’s willingness to
2

The ex parte orders themselves go further, affirmatively
stating that the children’s whereabouts are unknown. But it is
unclear that statement can be attributed to the defendants. The
SAC merely asserts, on information and belief, that the defendants “participated in intentionally crafting the language of the
Ex Parte Orders.” Jt. App., Vol. II at 30 ¶ 112. An allegation on
information and belief that defendants participated in some unspecified way in drafting a court order that purportedly contained
an inaccuracy falls short of plausibly asserting a basis for liability. Cf. Madonna v. United States, 878 F.2d 62, 66 (2d Cir. 1989)
(fraud on the court must be pled with particularity).

App. 13
participate in family preservation services arguably
affected only the non-emergency-based rationale.
Sixth, the fact that plaintiffs ultimately prevailed
in state-court proceedings does not mean that defendants’ alleged misrepresentations and omissions violated clearly established law. For the reasons we have
stated, plaintiffs fail to show such a violation.
Whether we would have concluded that an emergency existed under the facts alleged if the question
were presented to us in the first instance is not the issue. Rather, it is whether the defendants, in making
the alleged misrepresentations and omissions, violated
clearly established law by knowingly presenting the
need for emergency seizure and detention without
probable cause. They did not. The district court therefore properly granted qualified immunity concerning
this claim.
2. Denial of Motion to Re-Transfer
In the prior appeal we noted plaintiffs had failed
to appeal the transfer of their claims against the Kansas defendants to the District of Kansas. N.E.L. I, 740
F. App’x at 927. In its order denying their motion to retransfer, the district court concluded, based on the
prior decision, that it was constrained by the “law of
the case” doctrine. Jt. App., Vol. II at 183 (internal quotation marks omitted). It determined plaintiffs failed
to assert any good reason for departing from that doctrine. See id. at 184.

App. 14
The law of the case doctrine does not deprive a
transferee court of its power to correct an erroneous
transfer decision. F.D.I.C. v. McGlamery, 74 F.3d 218,
221 (10th Cir. 1996). A litigant dissatisfied with the
transfer decision may still “bring[ ] a motion to retransfer in the transferee court.” Id. at 222. But the prior
transfer decision of a coordinate court should only be
revisited in extraordinary circumstances, “such as
where the initial decision was clearly erroneous and
would work a manifest injustice.” Christianson v. Colt
Indus. Operating Corp., 486 U.S. 800, 817 (1988) (internal quotation marks omitted).
The district court determined that plaintiffs failed
to demonstrate clear error. It noted the District of Colorado’s rationale that all the defendants’ conduct took
place in Kansas with the goal of returning the children
to Kansas, and that any contacts with defendants in
Colorado were too slight to overcome the fact that most
of the conduct plaintiffs complain of occurred in Kansas. Plaintiffs advance several arguments in opposition to this conclusion, see Jt. Opening Br. at 23-29,
centered on the allegedly unlawful seizure and/or deprivations they contend took place in Colorado. But the
District of Colorado granted qualified immunity to the
Colorado defendants concerning those claims. For substantially the same reasons cited by the District of
Colorado, we have determined the District of Kansas
properly granted qualified immunity to the Kansas
defendants. Thus, plaintiffs cannot show they had any
likelihood of a different result had they been permitted
to pursue their claims in the District of Colorado

App. 15
rather than the District of Kansas, and any error in the
transfer decision was therefore harmless.
CONCLUSION
We affirm the district court’s orders dismissing
the case and denying plaintiffs’ motion for re-transfer
to Colorado. We grant plaintiffs’ unopposed motion to
seal the CINC records contained in Volume III of the
Appendix.
Entered for the Court
Gregory A. Phillips
Circuit Judge

App. 16
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS
N.E.L., M.M.A., and E.M.M.,
Plaintiffs,
v.

Case No. 17-2155-CM

MONICA GILDNER, et al.,
Defendants.
MEMORANDUM AND ORDER
(Filed Mar. 1, 2018)
This matter is before the court on plaintiffs N.E.L.,
M.M.A., and E.M.M.’s Motion to Transfer Case (Doc.
130). Plaintiffs ask this court to reverse the United
States District Court for the District of Colorado’s
decision to transfer the case to this court because it
lacked specific jurisdiction over defendants.
This case was transferred to this court from the
District of Colorado on March 14, 2017. Plaintiffs filed
the present motion on September 25, 2017, more than
six months after the case was transferred. Plaintiffs allege the District of Colorado erred in finding it lacked
specific jurisdiction because the suit arises out of, or
relates to, the contacts defendants had with two Colorado officials and their conspiracy to commit an unlawful seizure in Colorado, and because the deprivation of
plaintiffs’ constitutional rights occurred in Colorado.

App. 17
Plaintiffs claim their legal basis for their motion
to retransfer is found in F.D.I.C. v. McGlamery, 74 F.3d
218, 222 (10th Cir. 1996). In McGlamery, the Tenth
Circuit found that a transferee court and transferee
circuit have the power to “indirectly review the transfer order if the [plaintiff ] moves in those courts for retransfer [sic] the case.” Id. at 221. Courts considering
a motion to retransfer, however, are constrained by the
“law of the case” doctrine. See Chrysler Credit Corp. v.
Country Chrysler, Inc., 928 F.2d 1509, 1516 (10th Cir.
1991) (“Accordingly, traditional principles of law of the
case counsel against the transferee court reevaluating
the rulings of the transferor court, including its transfer order.”). A prior ruling of a transferor court, therefore, may only be reconsidered when 1) the governing
law has been changed by the subsequent decision of a
higher court, 2) when new evidence becomes available,
or 3) when clear error has been committed or to prevent manifest injustice. Id. Additionally, a party may
choose to challenge the transferor court’s decision to
transfer a case for lack of personal jurisdiction on appellate review after final judgment. McGlamery, 74
F.3d at 222 (“In terms of the effectiveness of review after final judgment, a transfer for lack of personal jurisdiction provides no less opportunity for review than a
transfer for improper venue under § 1406(a).”).
In reviewing plaintiffs’ motion, however, the court
finds no good reason to overturn the decision of the
magistrate judge in the District of Colorado, which was
later adopted by the district court judge. Plaintiffs
have not shown any intervening law changes or the

App. 18
discovery of new evidence, nor have they made a sufficient case to show the District of Colorado committed
clear error. Personal jurisdiction exists only when the
suit arises out of or is related to the defendant’s contact
with the forum. Bristol-Myers Squibb Co. v. Superior
Court of Cal., S.F. Cty., 137 S. Ct. 1773, 1780 (2017).
The District of Colorado found defendants did not
have the requisite contacts with Colorado, as all of defendants’ conduct took place in Kansas with the goal of
returning the children to Kansas. The fact they may
have contacted officials in Colorado during the execution of a Kansas order or that the children were in Colorado at the time of their alleged illegal seizure are too
slight of contacts to overcome the fact that most of the
complained of conduct occurred in Kansas.
The court finds plaintiffs have failed to meet their
burden to show this court should alter the District of
Colorado’s decision to transfer the case for lack of personal jurisdiction under the law of the case doctrine.
The motion is therefore denied.
IT IS THEREFORE ORDERED that plaintiffs’
Motion to Transfer Case (Doc. 130) is denied.
Dated March 1, 2018, at Kansas City, Kansas.
s/ Carlos Murguia
CARLOS MURGUIA
United States District Judge

App. 19
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS
N.E.L., M.M.A., and E.M.M.,
Plaintiffs,
v.

Case No.
17-2155-CM

MONICA GILDNER, et al.,
Defendants.
MEMORANDUM AND ORDER
(Filed Mar. 7, 2018)
Plaintiffs N.E.L., M.M.A., and E.M.M. bring this
action against defendants Monica Gildner, Angela
Webb, and Tina Abney, for violations of their constitutional rights under 42 U.S.C. § 1983. Plaintiffs allege
defendants—who at the relevant time were social
workers with the Kansas Department of Children and
Families (“DCF”)—engaged in a series of acts which
led to plaintiffs’ unconstitutional seizure and detainment. The matter is now before the court on defendants’ Motion to Dismiss Second Amended Complaint
(Doc. 120). For the reasons set forth below, the court
grants the motion.
I.

Background

This case has a long, storied past. It comes before
this court after it was transferred from the District of
Colorado on March 14, 2017. Plaintiffs originally filed

App. 20
their complaint in the District of Colorado on December 31, 2015, alleging constitutional violations against
defendants as well as two Colorado state officials and
Douglas County, Colorado. A magistrate judge recommended the district court grant defendants’ motions to
dismiss, finding the Colorado defendants were entitled
to qualified immunity and that the court lacked personal jurisdiction over the Kansas defendants. (Doc.
91.) The district court judge adopted the recommendations and transferred the claims against the Kansas
defendants to this court. (Doc. 98.) Upon transfer,
plaintiffs filed a second amended complaint against defendants. This amended complaint is the subject of the
current motion to dismiss.
Accepting the facts in the second amended complaint as true and viewing them in the light most favorable to the plaintiffs, the court will summarize the
incident that gave rise to the current litigation.
Plaintiffs are three of John Doe and Jane Doe’s ten
children. In 2008, John Doe, Jane Doe, and their ten
children lived in Johnson County, Kansas. In the
spring of 2008, one of the younger children, who is not
a party to this case, began exhibiting troubling behavior and making comments regarding improper behavior involving a relative of Jane Doe. The parents made
a report to authorities at the Kansas Department of
Social and Rehabilitation Services (now known as
DCF) and advised them that none of their children had
seen the relative, or any other members of Jane Doe’s
family, since 2006.

App. 21
Defendant Monica Gildner was assigned by her
superiors, defendant Angela Webb and defendant Tina
Abney, to oversee the Doe family’s case. Defendants referred the children to Sunflower House for interviews
regarding the alleged abuse. After a criminal investigation into the allegations against the relative, law enforcement notified defendant Gildner that no charges
would be pursued. Gildner then closed the Doe family’s
file. After the file was closed, however, the reporting
child shared additional information, which the parents
reported to DCF. Defendant Gildner referred the child
again to the Sunflower House and reopened the DCF
file. Another Doe child then reported abuse by the
same relative and was referred to the Sunflower
House. The children were also seeing a counselor.
At some point, defendant Gildner took the position
that the abuse allegations against the relative were
fabricated and that Jane Doe was suffering from postpartum depression and mental instability. She recommended the children continue counseling and that
Jane Doe begin counseling. John Doe then attempted
to cease contact with defendant Gildner because of her
adversarial position to his wife and him and her “antagonistic, biased, and baseless positions.” Defendants
Webb and Abney refused to replace defendant Gildner
with a different social worker. At some point after John
Doe asked for defendant Gildner to be taken off the
case, Gildner threatened to initiate court action and
required that the entire family participate in Family
Preservation Services, which plaintiffs allege was in
retaliation for John Doe’s complaint against her.

App. 22
In February 2009, defendant Gildner received two
more reports regarding the allegations by the secondreporting Doe child. Shortly thereafter, John Doe filed
a formal complaint with DCF regarding defendant
Gildner’s inaction as he was concerned that no medical
exams were ordered and no follow up interviews were
being conducted for the child. Defendant Gildner
sought a meeting with John Doe to discuss her concerns about the children being subjected to continued
interviews about the allegations and how the family
was going to move forward. Plaintiffs allege defendant
Gildner believed the relative and maternal grandmother’s denials of the alleged abuse over the children’s claims. Defendant Gildner told John Doe that if
he refused to meet with her or participate in recommended services that she may have to involve the District Attorney’s Office and the court. Plaintiffs allege
this meeting and the imposition of services was in retaliation for their complaint against her.
In March 2009, a third Doe child reported abuse
allegations by the same relative to DCF. On April 20,
2009, the District Attorney’s Office filed Child In Need
Of Care (“CINC”) petitions for all ten of the Doe children in the Johnson County, Kansas District Court.
After the petitions were filed, the court set a nonemergency hearing for May 11, 2009. The children remained in John and Jane Doe’s custody.
On April 29, 2009, John Doe notified defendant
Gildner that he was willing to participate in Family
Preservation Services. On April 30, 2009, defendant
Gildner was notified by a relative of the Doe family

App. 23
that Jane Doe and the children may have left town. Evidence suggested Jane Doe and the children had gone
to Colorado. On May 4, 2009, defendant Gildner went
to the Doe home and met John Doe, who told her any
contact with him needed to be through his attorney.
John Doe provided the address of where the family was
in Colorado to the Overland Park, Kansas police.
On May 5, 2009, defendants sought an ex parte order of protective custody. An application for the order
was filed by the District Attorney’s Office and was
granted by the Johnson County District Court. According to the order, the court found:
1.

that remaining in the home would be contrary
to the welfare of the children,

2.

immediate placement was in the best interest
of the children based on allegations of physical, sexual, mental, or emotional abuse in the
CINC petitions and,

3.

it was reported that the children had left the
area, that John Doe had refused to provide
any information about the whereabouts of the
children, and that the whereabouts of the children were presently unknown.

Plaintiffs allege defendants “fraudulently misrepresented to the court the factual basis for obtaining the
Ex Parte Orders and participated in intentionally
crafting the language of the Ex Parte Order to make it
appear that an immediate danger to the children existed when Defendants knew in fact that no such immediate danger existed or . . . they had no facts upon

App. 24
which to form a reasonable suspicion that Plaintiffs
were in immediate danger . . . ” (Doc. 114, at 15–16.)
Plaintiffs allege the following facts in the ex parte
order that falsely state or insinuate in a manner intended to alarm and mislead:
•

That the parents had committed physical,
sexual, mental, or emotional abuse when such
statement had no basis in the facts alleged in
the CINC petitions or in the facts known to
defendants.

•

That John and Jane Doe had refused Family
Preservation Services when in fact John Doe
had specifically accepted the offer of Family
Preservation Services.

•

That an emergency existed which threatened
the safety of the children when defendants
knew the Doe children were not in danger
based on their actions:
o

in initially closing the DCF file

o

in disbelieving that the children’s abuse
had actually occurred

o

in filing CINC petitions only after John
Doe had lodged a complaint against defendant Gildner

o

in not seeking immediate custody of the
children upon filing the CINC petitions

App. 25
o

in failing and refusing to contact John
and Jane Doe’s attorney or the children’s
court-appointed guardian ad litem prior
to seeing the ex parte order.

•

That John Doe would not provide any information on the whereabouts of the children
when he actually instructed defendant Gildner to contact his attorney, which she did not.

•

That the whereabouts and safety of the children were unknown, when defendants knew
that Jane Doe and the children had gone to
Colorado and defendants made no attempt to
obtain information from the children’s guardian ad litem.

Plaintiffs also allege defendants intentionally or
recklessly failed to disclose the following facts that, but
for their omission, would have resulted in a denial of
the ex parte order:
•

The CINC petitions contained no prohibition
against travel by John or Jane Doe or the children before the CINC hearing.

•

The request for the ex parte order was in retaliation for John and Jane Doe’s complaint
against defendant Gildner and/or for their retaining counsel to represent them.

•

Defendants had failed to contact either the
children’s guardian ad litem or John and Jane
Doe’s attorney before seeking the ex parte order.

•

Defendants disbelieved the children’s allegations of abuse by their relative.

App. 26
•

Defendants had no reasonable suspicion to believe any of the Doe children were in imminent danger of physical harm or neglect.

•

The Doe children did not meet the definition
of children in need of care under K.S.A. § 382202(d).

Plaintiffs allege that the ex parte orders lacked
any objectively reasonable basis for believing the facts
alleged in support were sufficient to establish probable
cause to temporarily remove the children from the custody of their parents, and defendants applied for the
orders without an objectively reasonable basis for believing there was probable cause.
On May 6, 2009, Jane Doe was with her ten children visiting family friends in Douglas County, Colorado. Lesa Adame, a social worker with the state of
Colorado, and Carl Garza, an employee of the Douglas
County, Colorado Sheriff ’s Office, went together to the
home where Jane Doe and the Doe children were staying. Adame and Garza told the family friend, Dr. G,
that they had a court order from the State of Kansas
to seize custody of all ten of the Doe children. Adame
and Garza entered the home with an order from the
Colorado Department of Social Services and the Douglas County Department of Human Services that required Dr. G and his wife Mrs. G to take custody of the
Doe children and follow through with a safety plan.
The order also required Jane Doe to not have any contact with the children. Dr. and Mrs. G were allowed to
personally transport the Doe children to Kansas, and
upon arrival in Kansas, the children were transferred

App. 27
to DCF custody. Dr. G requested temporary custody of
the children or, alternatively, for the children to be
placed in the custody of their paternal grandparents.
DCF declined this request and instead separated the
children and placed them with foster families.
II.

Legal Standards

Under Rule 12(b)(6), a court may dismiss a complaint for “failure to state a claim upon which relief can
be granted.” Rule 8(a)(2) states that a pleading must
contain “a short and plain statement of the claim showing that the pleader is entitled to relief.” To withstand
a motion to dismiss under 12(b)(6), a complaint must
contain “enough allegations of fact, taken as true, ‘to
state a claim to relief that is plausible on its face.’ ”
Khalik v. United Air Lines, 671 F.3d 1188, 1190 (10th
Cir. 2012) (quoting Bell Atl. Corp. v. Twombly, 550 U.S.
544 (2007)). A claim is plausible when “the pleaded factual content allows the court to draw the reasonable
inference that the defendant is liable for the misconduct alleged.” Ashcroft v. Iqbal, 556 U.S. 662, 663 (2009).
When the complaint contains well-pleaded factual allegations, a court should “assume their veracity and
then determine whether they plausibly give rise to an
entitlement to relief.” Id.
Generally, when reviewing a Rule 12(b)(6) motion,
a court only considers the contents of the complaint.
See Gee v. Pacheco, 627 F.3d 1178, 1186 (10th Cir.
2010). Exceptions to this rule include: 1) documents
that the complaint incorporates by reference, 2)

App. 28
documents referred to in the complaint if the documents are central to the plaintiffs’ claim and the parties do not dispute the documents’ authenticity, and 3)
matters of which a court may take judicial notice. Id.;
see also Indus. Constructors Corp. v. U.S. Bureau of Reclamation, 15 F.3d 963, 964 (10th Cir. 1994) (courts may
consider documents attached to the complaint when
reviewing a 12(b)(6) motion); Van Woudenberg v. Gibson, 211 F.3d 560, 568 (10th Cir. 2000) (“[T]he court is
permitted to take judicial notice of its own files and
records, as well as facts which are a matter of public
record.”), abrogated on other grounds by McGregor v.
Gibson, 248 F.3d 946, 955 (10th Cir.2001); GFF Corp. v.
Assoc’d Wholesale Grocers, Inc., 130 F.3d 1381, 1384
(10th Cir. 1997) (“[I]f a plaintiff does not incorporate by
reference or attach a document to its complaint, but
the document is referred to in the complaint and is central to the plaintiff ’s claim, a defendant may submit an
indisputably authentic copy to the court to be considered on a motion to dismiss.”).
In this case, plaintiffs have attached various documents to their second amended complaint, including
a copy of the Ex Parte Order of Protective Custody filed
in Johnson County District Court on May 5, 2009 (Doc.
114-1), and a “Safety Plan” from the Colorado Department of Social Services and Douglas County Department of Human Services (Doc. 114-2). In their motion
to dismiss, defendants attached:
1) Motion for Request for Ex Parte Orders of Protective Custody filed by the Johnson County District Attorney on May 4, 2009,

App. 29
2) copies of the CINC petitions for all three
plaintiffs filed April 20, 2009 in Johnson County
District Court,
3) copies of the Ex Parte Order of Protective Custody for all three plaintiffs filed May 5, 2009 in
Johnson County District Court,
4) copies of the Motion for Pick-Up Order for all
three plaintiffs filed May 5, 2009 in Johnson
County District Court,
5) copies of the Order for Pick Up filed May 5,
2009 in Johnson County District court for all three
plaintiffs, accompanied by an affidavit submitted
by the District Attorney in support of the Pick-Up
Order,
6) Journal Entry Nunc Pro Tunc filed on May 8,
2009 in Johnson County District Court ordering
the Doe children be placed in custody of the Secretary of Social and Rehabilitation Services.
(Docs. 123-1-14 *SEALED*.)
Because there is no dispute to the authenticity of
these documents, and because the plaintiffs refer to
these documents in their complaint and the facts in the
documents are central to plaintiffs’ claims, the court
will consider the exhibits without converting the motion into a motion for summary judgment.
III. Analysis
Plaintiffs’ Second Amended Complaint includes
the following claims:

App. 30
1) Unlawful seizure in violation of the Fourth
Amendment,
2) Unlawful detention in violation of the Fourth
Amendment,
3) Deprivation of familial association in violation
of the Fourteenth Amendment,
4) Conspiracy (with the Colorado officials) to deprive plaintiffs of their constitutional rights,
5)

Exemplary damages,

6)

Deprivation of the right to travel, and

7)

Malicious prosecution and/or abuse of process.

All of the claims are related to defendants’ conduct
in seeking the ex parte order for protective custody,
which, when it was granted by a judge in Johnson
County District Court, resulted in plaintiffs’ removal
from Jane Doe’s custody in Colorado and subsequent
temporary placement in state custody.
Defendants move to dismiss the complaint arguing 1) the Rooker-Feldman doctrine bars plaintiffs’
claims, 2) they are entitled to absolute immunity, 3)
plaintiffs failed to state a claim as the seizure was inherently reasonable, 4) plaintiffs failed to state a claim
for deprivation of their right to familial association, 5)
plaintiffs failed to state a claim for malicious prosecution or abuse or process, 6) plaintiffs failed to state a
claim for deprivation of the right to travel, 7) they are
entitled to qualified immunity, 8) plaintiffs failed to establish defendant Webb and defendant Abney’s

App. 31
personal involvement, and 9) the claims are barred by
the statute of limitations.
a. Rooker-Feldman
Defendants insist that the Rooker-Feldman doctrine applies to plaintiffs’ claims and, therefore, this
court does not have jurisdiction over the case. Because
this implicates whether the court has subject matter
jurisdiction over the case, the court will take up this
argument first.
The Rooker-Feldman doctrine “precludes lower
federal courts ‘from effectively exercising appellate jurisdiction over claims actually decided by a state court
and claims inextricably intertwined with a prior statecourt judgment.’ ” PJ ex rel. Jensen v. Wagner, 603 F.3d
1182, 1193 (10th Cir. 2010) (citing Mo’s Express, LLC v.
Sopkin, 441 F.3d 1229, 1233 (10th Cir. 2006)). The doctrine extends to “all state-court decisions—final or otherwise . . . and covers not only claims actually decided
by the state court but issues inextricably intertwined
with such claims.” Atkinson-Bird v. Utah, Div. of Child
& Family Servs., 92 F. App’x 645, 647 (10th Cir. 2004).
The Supreme Court has recently clarified the “narrow
scope” of the doctrine, noting it applies only to “cases
brought by state-court losers complaining of injuries
caused by state-court judgments rendered before the
district court proceedings commenced and inviting district court review and rejection of those judgments.”
Wagner, 603 F.3d at 1193 (citing Exxon Mobil Corp. v.
Saudi Basic Indus. Corp., 544 U.S. 280, 284 (2005)). In

App. 32
deciding whether the doctrine applies, courts should
determine whether “the state-court judgment caused,
actually and proximately, the injury for which the federal-court plaintiff seeks redress,” and whether success
on the claims “would require the district court to review and reject [the state court’s] judgments.” Id. For
example, the doctrine would bar a claim for constitutional violations if the alleged violation was the result
of the state court’s order. See Atkinson-Bird, 92 F. App’x
at 647 (“[A]n unsuccessful state litigant cannot challenge an adverse state judgment and circumvent the
rule of Rooker-Feldman simply ‘by bringing a constitutional claim under the civil rights statutes.’ ”)
Defendants claim the Rooker-Feldman doctrine
applies, arguing plaintiffs are effectively seeking appellate review of the ex parte order of protective custody. Defendants note that orders of temporary custody
are appealable under K.S.A. § 38-2273, therefore the
ex parte order was a final, appealable order and plaintiffs chose not to seek appellate review and are prohibited from seeking such review in this court. The
doctrine further precludes subject matter jurisdiction
because the relief plaintiffs seek is “inextricably intertwined” with the ex parte order.
First, there is no indication the ex parte order was
a final, appealable order. The Kansas Court of Appeals
has held that an ex parte order is not appealable because it does not fall under the definition of “temporary
custody order” in K.S.A. § 38-2243 and because “[e]x
parte orders issued . . . upon a verified application are
designed to be short-lived orders that remain in effect

App. 33
until the temporary custody hearing. . . .” In re K.W.C.,
Nos. 112,904–907, 2015 WL 6112013, at *5 (Kan. Ct.
App. Oct. 16, 2015). Regardless, the doctrine applies to
all state-court decisions “final or otherwise,” including
issues “inextricably intertwined with such claims.” Atkinson-Bird, 92 F. App’x at 647.
Although defendants argue that plaintiffs’ claims
in substance attack the state-court order and/or are
“inextricably intertwined” with the issues in the order,
the court finds they do not. Plaintiffs allege that defendants’ pre-order conduct—including misleading the
court with factual misrepresentations and omissions
and seeking an ex parte order fully knowing there was
no probable cause to do so—ultimately led to their illegal seizure. Plaintiffs are not asking for the invalidation of the ex parte order, rather, they seek relief for
defendants’ alleged illegal actions which led to the issuance of that ex parte order. See Kovacic v. Cuyahoga
Cnty. Dep’t of Children & Families, 606 F.3d 301, 310
(6th Cir. 2010) (finding the Rooker-Feldman doctrine
did not apply to plaintiffs’ Fourth Amendment claims
and claims for due process violations because they did
not “seek review or reversal of the decision of the juvenile court to award temporary custody to the state, but
instead focus[ed] on the conduct of Family Services and
of the social workers that led up to the juvenile court’s
decision to award temporary custody to the County.”).
Because the Supreme Court has advised that the
Rooker-Feldman doctrine has a “narrow application,”
the court finds it does not apply in this case and subject
matter jurisdiction exists over plaintiffs’ claims.

App. 34
b.

Absolute Immunity

Defendants next argue they have absolute immunity from suit based on the nature of their functions. Absolute immunity is “necessary to assure that
judges, advocates, and witnesses can perform their respective functions, often controversial, without concern
about possible repercussions.” Snell v. Tunnell, 920
F.2d 673, 687 (10th Cir. 1990). The Supreme Court has
applied a “functional approach” when determining
whether particular acts of government officials are eligible for absolute immunity, looking to “the nature of
the function performed, not the identity of the actor
who performed it.” See Buckley v. Fitzsimmons, 509
U.S. 259, 269 (1993). The Tenth Circuit has held that
“the more distant a function is from the judicial process, the less likely absolute immunity will attach.”
Snell, 920 F.2d at 687. So, for example, an officer applying for a warrant is not absolutely immune from
suit, but a prosecutor seeking an indictment may enjoy
absolute immunity. Id. The Tenth Circuit has found
specifically that social workers are not absolutely immune from suits involving their investigative functions. See Malik v. Arapahoe Cnty. Dep’t of Soc. Servs.,
191 F. 3d 1306, 1314 (10th Cir. 1999) (denying absolute
immunity for social workers in a suit related to their
“participation in the investigative act of seeking a
placement order). In contrast, the Tenth Circuit has
granted absolute immunity for social workers in suits
related to their functions as a testifying witness. See
English v. LeBaron, 3 F. App’x 872, 873 (10th Cir. 2001).

App. 35
Because the facts in the second amended complaint allege defendants committed constitutional violations when they relied on factual misrepresentations
and omissions when they recommended the District
Attorney seek an ex parte order of protective custody,
the court finds absolute immunity does not apply, as
defendants’ conduct involved their investigative function.
c.

Qualified Immunity

Defendants next argue that if they are not absolutely immune, they are at least entitled to qualified
immunity. Qualified immunity recognizes “the need to
protect officials who are required to exercise their discretion and the related public interest in encouraging
the vigorous exercise of official authority.” Harlow v.
Fitzgerald, 457 U.S. 800, 807 (1982). It protects “all but
the plainly incompetent or those who knowingly violate the law.” Malley v. Briggs, 475 U.S. 335, 341 (1986).
A defendant is entitled to qualified immunity unless
the plaintiff can show “(1) a reasonable jury could find
facts supporting a violation of a constitutional right,
which (2) was clearly established at the time of the defendant’s conduct.” Estate of Booker v. Gomez, 745 F.3d
405, 411 (10th Cir. 2014). The Supreme Court has held
a court has the discretion to consider “which of the two
prongs of the qualified immunity analysis should be
addressed first in light of the circumstances in the particular case at hand.” Pearson v. Callahan, 555 U.S.
223, 236 (2009).

App. 36
Following this instruction from the Supreme
Court, the court will first address whether defendants
violated clearly established law. “The relevant, dispositive inquiry in determining whether a right is clearly
established is whether it would be clear to a reasonable
officer that his conduct was unlawful in the situation
he confronted.” Saucier v. Katz, 533 U.S. 194, 202
(2001). For a right to be clearly established, the “contours of the right must be sufficiently clear that a reasonable official would understand that what he is
doing violates that right.” Id. Determining when a law
is clearly established ordinarily requires “a Supreme
Court or Tenth Circuit decision on point, or the clearly
established weight of authority from other courts must
have found the law to be as plaintiff maintains.”
Booker, 745 F.3d at 427. The Tenth Circuit has adopted
a sliding scale approach to determine when law is
clearly established. Id. Under the sliding scale approach, “the more obviously egregious the conduct in
light of prevailing constitutional principles, the less
specificity is required from prior case law to establish
the violation.” Id. The question we must answer, therefore, is whether officials—in this case social workers—
“of reasonable competence could disagree about the
lawfulness of the challenged conduct.” Gomes v. Wood,
451 F.3d 1122, 1136 (10th Cir. 2006). If so, the court
must grant defendants qualified immunity.
The Fourth Amendment prohibits the government
from unreasonably removing children from their home.
See Burgess v. Houseman, 268 F. App’x 780, 783 (10th
Cir. 2008) (finding an unreasonable seizure when a

App. 37
social worker helped seize and detain a child without
a warrant or probable cause to believe the child would
be abused if she remained in her mother’s custody);
Roska ex rel. Roska v. Peterson, 328 F.3d 1230, 1244
(finding a child was unreasonably seized within meaning of the Fourth Amendment when state actors removed him from his home under belief that his health
was at risk.). Plaintiffs maintain that in the Tenth Circuit, the law is clearly established that obtaining a
court order to seize a child through distortion, misrepresentation, and omission is a violation of the Fourth
Amendment. See Malik, 191 F.3d at 1316 (“Officials
cannot reasonably assume that the law permits them
to obtain a custody order in retaliation for a parent’s
retaining counsel and through reckless omission of
probative facts to a magistrate.”).
In Malik, a police officer and state social worker
sought an order from a magistrate judge to remove a
four-year-old girl from her mother’s custody so that
they could interview her regarding nude photographs
taken of her. Id. at 1310–13. In seeking the order, the
social worker failed to inform the judge that authorities did not consider the girl to be in imminent danger,
that the photographs were five months old and taken
by an uncle who did not live in the area, that the
mother had already been interviewed, that the officer
had already cancelled one of the previously scheduled
interviews with the child, and that a medical professional had expressed doubt that the child had bruises
on her in the photographs. Id. at 1311–12. The social
worker also failed to mention that the mother had

App. 38
retained an attorney who had insisted on certain conditions for the child to be interviewed, and proposed
alternative interview dates should officials agree to the
conditions. Id. at 1310. The magistrate judge granted
the order and once the child had been removed from
her mother’s custody, another officer allegedly told the
mother, “this wouldn’t have happened if you hadn’t gotten an attorney.” Id. at 1312. The Tenth Circuit found
the officer and social worker were not entitled to qualified immunity because “[o]fficials’ desire to circumvent an attorney’s attempt to negotiate protective
conditions for an interview does not rise to the level of
an extraordinary circumstance dangerous to the child
. . . ,” because the magistrate judge’s order was procured because of relevant factual omissions, and because it was clearly established that an individual’s
rights are violated when a police officer retaliates
against him for hiring an attorney. Id. at 1315–16.
Defendants, however, note that the Tenth Circuit
has found qualified immunity for social workers in
suits against them for violations resulting from the removal of children. In Gomes v. Wood, for example, the
Tenth Circuit found that because officers of reasonable
competence could disagree as to whether an immediate
threat to the safety of the child did not exist, the social
worker—who had recommended removal of a child
who had suffered a skull fracture—was entitled to
qualified immunity. 451 F.3d at 1137. In granting qualified immunity, the Tenth Circuit emphasized that
“considerable deference should be given to the judgment of responsible government officials in acting to

App. 39
protect children from perceived imminent danger or
abuse.” Id. Further, qualified immunity should only be
denied if, when presented with all relevant information in the case, a reasonable official would have
“understood that there were no ‘emergency circumstances which pose an immediate threat to [the child’s]
safety.’ ” Id. In deciding whether officials have a reasonable suspicion of threat to a child, courts must consider “all relevant circumstances, including the state’s
reasonableness in responding to a perceived danger, as
well as the objective nature, likelihood, and immediacy
of danger to the child.” Id. at 1131.
The court agrees with plaintiffs that the allegations in the second amended complaint—that defendants sought the ex parte order knowing there was no
emergency and knowing they were omitting and misrepresenting relevant facts—does violate clearly established Tenth Circuit law. Yet the Tenth Circuit has
recognized the difficulty social workers face in making
“on-the-spot judgments on the basis of limited and often conflicting information . . . with limited resources
to assist them,” and has emphasized that courts must
consider all relevant circumstances when deciding
whether an official acted within the bounds of the law.
Id. at 1138, 1131. Therefore, the court must consider
not only plaintiffs’ allegations but also the uncontested
documents provided by defendants in support of their
motion to dismiss to determine whether any official
could disagree with the reasonableness of defendants’
conduct.

App. 40
As mentioned above, plaintiffs claim constitutional violations based on defendants’ alleged omissions and misrepresentations in seeking the ex parte
order of protective custody. Plaintiffs argue defendants
knew no exigencies existed to justify removing them
from their mother’s custody and that the ex parte order
was invalid, and therefore, their removal was a seizure
under the Fourth Amendment. Again, the Tenth Circuit has instructed us to give deference to officials who
are acting to protect children, and to consider all the
relevant circumstances. In reviewing the documents
attached to defendants’ motion to dismiss, the court
will briefly summarize defendants’ and the Johnson
County District Attorney’s positions in regard to plaintiffs, their siblings, and John and Jane Doe.
In the Motion for Request For Ex Parte Orders of
Protective Custody, the Johnson County District Attorney stated that CINC petitions had been filed for all
ten children and that the facts alleged in the petitions
“pursuant to the investigation of [DCF], remained the
primary concern the State has for the welfare of the
minor children.” (Doc. 123-1 *SEALED*, at 2.) After
the petitions were served on the parents, John Doe contacted defendant Abney to express his willingness to
cooperate with the DCF investigation and services.
This information was passed along to defendant Gildner. Defendant Webb contacted John Doe and he also
expressed to her he wanted to work with Family
Preservation as soon as possible, and that he intended
to cooperate with DCF. On May 1, defendant Gildner
received a message from the children’s maternal

App. 41
grandmother, who stated that one of her children had
driven by the Doe home and had seen them loading
luggage into their vehicle, and that later the home was
dark and the family’s vehicle was gone. The family’s
social worker for SRS benefits stated that the family’s
food stamp card had been used in Colorado on May 2
and May 3. The District Attorney then stated “[b]ased
on this information, [DCF] has reason to believe that
[Jane Doe] and the children have left the State of Kansas. Based upon these activities as well as the facts as
outlined in the petitions filed of record, the State believes that the children may be at imminent risk for
harm.” (Doc. 123-1 *SEALED*, at 3.)
Because the motion for the ex parte order was
based partially on the allegations in the CINC petitions, it is necessary to summarize those here. It is important to note that while plaintiffs allege the CINC
petitions were not based on probable cause, they have
not contested the facts in the CINC petitions. According to the petitions, filed by the Johnson County District Attorney, DCF began working with the Doe family
in June 2008 after allegations of sexual abuse of one of
the non-plaintiff children arose. This non-plaintiff
child alleged that a maternal relative had touched her
inappropriately. The Doe family was estranged from
the maternal relatives because Jane Doe felt it was inappropriate that this same maternal relative had been
tickling her children.
The non-plaintiff reporting child as well as two
other non-plaintiff children were interviewed about
the allegations. The maternal relative was also

App. 42
interviewed by police regarding the allegations, which
he denied. Because the allegations were unsubstantiated, DCF closed the case. DCF recommended Jane
Doe seek counseling to address anger toward her family, as she had reported she had been sexually abused
by a relative.
In November 2008, DCF received another report
alleging the original reporting non-plaintiff child had
disclosed additional information about the alleged sexual abuse by the maternal relative. The child was
again interviewed, but the details were inconsistent
with the original report. In December 2008, another
non-plaintiff child reported that she and the original
reporting non-plaintiff child were given pills, shown
dead animals, and forced to watch pornography on the
maternal relative’s computer. Jane Doe reported that
the maternal relative threatened to kill the children if
they told anyone about the alleged abuse and that he
gave the children injections, showed them pornography on his computer, and forced them to watch animals
being shot and mutilated. She also alleged the relative
pushed his mother down the stairs in front of the children.
DCF notified law enforcement about these allegations and concern was expressed regarding Jane Doe’s
mental stability as she recently had given birth and
had a history of post-partum depression. DCF was concerned that because of the “fantastic nature” of the allegations, Jane Doe may be experiencing delusions
related to the allegations. After further interviews of
the children, law enforcement executed a search

App. 43
warrant for the computers in the maternal relative’s
home. There was no pornography found on any of the
computers. Based on the children’s statements, an elder abuse investigation was also initiated, but was
closed as the allegations were unconfirmed. Through
this investigation, however, officials found out that the
maternal relative and Jane Doe’s mother and father
had loaned the Doe family tens of thousands of dollars
to help with necessities with the understanding the
Doe family would pay them back. When the maternal
relative confronted John and Jane Doe about how the
money was being spent, John and Jane Doe became upset and cut off contact with the maternal side of the
family. John and Jane Doe had also been involved with
several lawsuits and had legal issues related to passing bad checks. Jane Doe had allegedly been soliciting
money on the internet and the family had to file for
bankruptcy. The maternal side of the family had expressed concern for the children’s physical and emotional well-being and Jane Doe’s mental health and
safety. DCF had also received documentation that Jane
Doe had been participating in online chat groups for
victims of sexual abuse and had been asked to leave
due to people being uncomfortable with her and feeling
that she had been lying about allegations she had been
reporting.
The family initially had accepted DCF’s offer of
Family Preservation Services, but later declined, stating the children were going to continue therapy and
that Jane Doe was going to begin therapy elsewhere.
In March 2009, John Doe called DCF to express his

App. 44
disappointment with their services. Shortly after, DCF
was informed by Leawood, Kansas and Kansas City,
Missouri Police Departments that law enforcement
and the FBI were involved in an investigation regarding allegations that the maternal relative had taken
some of the Doe children to a bar in Kansas City, Missouri, had given them shots, stripped them naked, and
made them lick a dead rat. Both agencies declined to
further investigate the allegations based on lack of information.
DCF expressed concern about the “fantasticality”
of the allegations and the high frequency of reports
from the family. DCF believed that much of the information reported by the Doe family was untrue based
on reports from others interviewed during the investigation. John Doe had reported he would continue to
seek action against the maternal relative, including filing a lawsuit, and DCF was concerned about the emotional impact this would have on the children due to
their continued exposure to interviews and investigations because of their parents’ action. DCF reported
they had attempted to discuss these concerns with
John and Jane Doe, but the first meeting was rescheduled, and the second meeting was canceled by John
Doe, who had expressed he no longer wanted to cooperate with DCF. DCF believed John and Jane Doe were
unwilling to listen to DCF’s concerns regarding their
children and DCF remained concerned with the children’s emotional well-being and safety, as Jane Doe
was the primary caregiver, was home with the children
all day, and was potentially suffering from mental

App. 45
health issues. DCF believed that, based on reports, the
source of much of the information regarding the allegations was from Jane Doe, not the children. And John
and Jane Doe had become increasingly uncooperative
in the investigation, and had recently denied DCF requests to interview the children.
The petition then stated that reasonable efforts
have been provided to prevent removal of the children
from the home, including ensuring the children were
safe from the alleged perpetrator in the original investigation, and that the children and Jane Doe had been
participating in therapy. DCF noted, however, that financial support from the maternal relatives had been
cut off, and that the family declined Family Preservation Services and had been declining to cooperate with
DCF. The petition then stated it was contrary to the
children’s welfare to remain in the home and that
placement out of the home was in the best interest of
the child due to: concerns about how the children’s
emotional and physical needs were being met, the continued on-going investigations and fantastic allegations being made against the maternal relative and the
impact this had on the children’s emotional health, and
Jane Doe’s mental stability.
As mentioned above, the court set a hearing on the
petitions for May 11, 2009. On May 5, 2009, the Johnson County District Attorney filed an affidavit in support of a pick-up order of the children after the ex parte
order of protective custody was issued. In the affidavit,
the Johnson County District Attorney claimed that on
May 5, defendant Gildner responded to the Doe family

App. 46
home after it was reported John Doe was seen there.
He informed defendant Gildner he would not divulge
the whereabouts of his children and that any communication would need to go through his attorney. The
District Attorney stated the pick-up order was necessary “to assure the juvenile’s continuing placement, is
necessary as there is no assurance that said juvenile
will appear for hearing in this Court, and is made in
the best interest of the child and the community.” (Doc.
123-11 *SEALED*, at 3.)
The court finds it is important to outline the facts
from the Johnson County documents as they refute
many of the “misrepresentations and omissions” plaintiffs rely on to support their argument that defendants
violated their constitutional rights. For example, plaintiffs allege that defendants had represented that “the
parents had committed physical, sexual, mental, or
emotional abuse when such statement had no basis in
the facts alleged in the CINC petitions or in the facts
known to defendants.” As the details from the CINC
petitions make clear, defendants had concern that the
children were subject to at least emotional and mental
abuse, and the facts alleged provided support for this
concern. Plaintiffs also claim “that John and Jane Doe
had refused Family Preservation Services when in fact
John Doe had specifically accepted the offer of Family
Preservation Services.” In the motion for the ex parte
order, the District Attorney specifically states that after the CINC petitions were filed, John Doe accepted
the offer of Family Preservation Services and stated he
was willing to cooperate with DCF. Further, plaintiffs

App. 47
claim that defendants knew the Doe children were not
in danger because they initially closed their file, disbelieved the children’s abuse had actually occurred, and
didn’t seek immediate custody of the children upon filing the CINC petitions. The motion for the ex parte order, however, states that the allegations in the CINC
petition, combined with the parents taking the children out of state, created an immediate need to take
custody of the children. The CINC petition itself stated
it was contrary to the children’s welfare to remain in
the home and that placement out of the home is in the
best interest of the child due to: concerns about how the
children’s emotional and physical needs are being met,
the continued on-going investigations and fantastic allegations being made against the maternal relative
and the impact this has on the children’s emotional
health, and Jane Doe’s mental stability. (Emphasis
added.)
Based on a review of the Johnson County documents, the court can distinguish this case from the
facts of Malik, which plaintiffs rely on to show the law
was clearly established. In Malik, the evidence showed
the officials had no reason to remove the child from the
home beyond the fact that they were having difficulty
scheduling the child for an interview. There were no
facts that the child was in danger, and the social
worker omitted material facts about the situation
when seeking an order from the magistrate judge.
Here, the District Attorney, likely based on a recommendation from defendants, sought an ex parte order
of protective custody based on the allegations in the

App. 48
CINC petition and the parents’ post-petition conduct—
removing the children from the state and not being
forthcoming about the children’s whereabouts. Most of
the claimed “misrepresentations and omissions” set
forth in plaintiffs’ complaint are refuted by the Johnson County documents or are not material. Plaintiffs
do claim that there were no travel restrictions placed
on the family in the time period between the filing of
the petition and the hearing, and therefore it was unreasonable to use the family’s travel to justify the ex
parte order. The court has not found any travel restrictions in any of the documents. The court, however,
has to give reasonable deference to defendants’ judgment in deciding when a child may be in danger.
The court therefore finds that reasonable officials
could disagree as to whether there was a threat to
plaintiffs’ safety. And based on the factual allegations
in the CINC petition—which have not been contested—combined with the parents’ post-petition conduct, it would be reasonable for an official to believe an
ex parte order of protective custody was justified.
For these reasons, the court finds defendants are
entitled to qualified immunity because the law is not
clearly established that their conduct violated plaintiffs’ constitutional rights.

App. 49
IT IS THEREFORE ORDERED that defendants’ Motion to Dismiss Second Amended Complaint
(Doc. 120) is granted.
This case is closed.
Dated March 7, 2018, at Kansas City, Kansas
s/ Carlos Murguia
CARLOS MURGUIA
United States District Judge

App. 50
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge Robert E. Blackburn
Civil Action No. 15-cv-02847-REB-CBS
N.E.L., and
M.M.A.,
Plaintiffs,
v.
DOUGLAS COUNTY, COLORADO,
MONICA GILDNER, in her individual capacity,
ANGELA WEBB, in her individual capacity,
TINA ABNEY, in her individual capacity
LESA ADAMS, in her individual capacity, and
CARL GARZA, in his individual capacity,
Defendants.
ORDER OVERRULING OBJECTIONS TO
AND ADOPTING RECOMMENDATION OF
UNITED STATES MAGISTRATE JUDGE
(Filed Mar. 13, 2017)
Blackburn, J.
The matters before me are (1) the Recommendation of United States Magistrate Judge re Motion
to Dismiss [#91], filed January 27, 2017; and (2)
Plaintiffs’ Objections to the Recommendation on
Pending Motions [#93], filed February 10, 2017. I
overrule the objections, approve and adopt the recommendation, grant the Douglas County defendants’

App. 51
motion to dismiss, grant the Kansas defendants’ motion to dismiss for lack of personal jurisdiction in this
forum, and transfer the claims against the Kansas
defendants to the United States District Court for the
District of Kansas.
As required by 28 U.S.C. § 636(b), I have reviewed
de novo all portions of the recommendation to which
objections have been filed. I have considered carefully
the recommendation, the objections, the underlying
motions, and all applicable caselaw. The recommendation is thorough and well-reasoned, and I approve and
adopt it in all relevant respects.
The magistrate judge found that defendants Lesa
Adame and Carl Garza, the two Douglas County, Colorado, employees who executed the ex parte orders issued
by the Johnson County, Kansas, court, were entitled to
qualified immunity from plaintiffs’ claims under the
Fourth and Fourteenth Amendments.1 Although I do
not concur with some of the magistrate judge’s analysis of the Fourth Amendment Claim,2 I do agree that,
1

Ms. Adame was employed by Douglas County as a social
worker, and OfficerGarza was employed by the Douglas County
Sheriff ’s Office.
2
Specifically, I believe the magistrate judge misread the
complaint in finding plaintiffs were not seized because they were
already in the custody of the state of Kansas by virtue of the ex
parte orders. (Recommendation at 19-20.) Plaintiffs plainly allege that claim was false (see First Am. Compl. ¶¶ 143-144 at
21, ¶ 150 at 22); indeed, the magistrate judge himself discussed
how the ex parte orders did not contain any affirmative order, let
alone a directive to take the children into custody (Recommendation at 10).

App. 52
assuming arguendo plaintiffs have stated a constitutional right, they have failed to demonstrate that such
right was clearly established on May 6, 2009. See
Pearson v. Callahan, 555 U.S. 223, 236, 129 S.Ct.
808, 818, 172 L.Ed.2d 565 (2009) (courts may “exercise
their sound discretion in deciding which of the two
prongs of the qualified immunity analysis should be
addressed first in light of the circumstances in the particular case at hand”).3
As the magistrate judge’s cogent and competent
discussion of these decisions amply demonstrates (see
Recommendation at 20-22), neither of the two Tenth
Circuit decisions on which plaintiffs rely in attempting
to satisfy their burden in this regard involve facts sufficiently similar to those alleged here such that a reasonable official in Ms. Adame’s and Officer Garza’s
circumstances would have understood their actions
violated the Fourth Amendment. See Dodds v. Richardson, 614 F.3d 1185, 1206 (10th Cir. 2010), cert.
3

I find it appropriate to exercise that discretion in this instance on several of the bases which have been identified as justifying addressing the clearly established prong first: (1) because
the constitutional violation alleged “ ‘is so factbound that the decision provides little guidance for future cases’ ”; (2) because “discussing both elements risks ‘bad decisionmaking’ because the
court is firmly convinced the law is not clearly established and is
thus inclined to give little thought to the existence of the constitutional right”; and (3) because “the doctrine of ‘constitutional
avoidance’ suggests the wisdom of passing on the first constitutional question because ‘it is plain that a constitutional right is
not clearly established but far“from obvious whether in fact there
is such a right.’ ” See Kerns v. Bader, 663 F.3d 1173, 1180-81
(10th Cir. 2011) (quoting Pearson, 129 S.Ct. at 818-21).

App. 53
denied, 131 S.Ct. 2150.4 Additionally, I note that in
these and the other cases to which plaintiffs point,
state officers seized and removed a child from the parent. Gomes v. Wood, 451 F.3d 1122, 1126 (10th Cir.
2006); Jones v. Hunt, 410 F.3d 1221, 1224-25 (10th
Cir. 2005), cert. denied, 127 S.Ct. 676. See also
Wooley v. City of Baton Rouge, 211 F.3d 913, 917-18
(5th Cir. 2000). Here, the opposite occurred – Ms.
Adame and Officer Garza allegedly required plaintiffs’
mother, Mrs. Doe, to leave, but left the children where
they first encountered them, in the home of Mrs. Doe’s
friends, Dr. and Mrs. G. Plaintiffs have presented no
authority, and the court has found none, in which officers were found to have seized a child under closely
analogous circumstances. Qualified immunity thus is
proper as to this claim.

4

The two other federal appellate court decisions to which
plaintiffs cite hardly constitute the clearly established weight of
authority from other courts,” even if those decisions were on
point. Harman v. Pollock, 586 F.3d 1254, 1261 (10th Cir. 2009).
Moreover, plaintiffs’ reliance on the Sixth Circuit’s unpublished
decision in Wendrow v. Michigan Department of Human Services, 534 Fed. Appx. 516 (6th Cir. Aug. 28, 2013), which carries
no precedential weight, see Braggs v. Perez, 73 Fed. Appx. 147,
148 (6th Cir. 2003), cert. denied, 124 S.Ct. 2113 (2004), is inapposite in any event, as it post-dates the allegedly unconstitutional
actions in this case by more than four years, see Reichle v. Howards, 566 U.S. 658, ___, 132 S.Ct. 2088, 2093, 182 L.Ed.2d 985
(2012) (right must be clearly established “by prior case law” “at
the time of the challenged conduct”). See also Ashcroft v. alKidd, 563 U.S. ___, 131 S.Ct. 2074, 2083, 179 L.Ed.2d 1149 (2011)
(“[E]xisting precedent must have placed the statutory or constitutional question beyond debate.”).

App. 54
Likewise, Ms. Adame and Officer Garza are entitled to qualified immunity from plaintiffs’ substantive
due process claim. Here, the magistrate judge relied on
the first prong of the qualified immunity analysis, concluding plaintiffs failed to plead a viable claim of violation of their Fourteenth Amendment right to familial
association because these defendants’ alleged interference (as opposed to the arguably more substantial interference that occurred once the children returned to
Kansas) was limited and incidental to the legitimate
goal of keeping the children safe pending their return
to Kansas. See Silvan v. Briggs, 309 Fed. Appx. 216,
223 (10th Cir. Jan. 23, 2009) (citing Nicholson v.
Scoppetta, 344 F.3d 154, 172 (2nd Cir. 2003)).5 I thus
concur with the magistrate judge’s conclusion that
plaintiffs have failed to state a claim for violation of
their constitutional right of familial association as
against Ms. Adame and Officer Garza.6
5

Plaintiffs’ objection – that Ms. Adame and Officer Garza
may be liable because they allegedly conspired with the Kansas
defendants in the subsequent, lengthier detention of the children
– assumes what it would seek to prove. Plaintiffs first must prove
these defendants violated their civil rights before they may be
held liable for civil conspiracy to violate those rights. See United
Brotherhood of Carpenters & Joiners of America, Local
610, AFL-CIO v. Scott, 463 U.S. 825, 833, 103 S.Ct. 3352, 3358,
77L.Ed.2d 1049 (1983).
6
Moreover, and although the magistrate judge did not reach
the second prong of the qualified immunity test, his analysis further makes plain that plaintiffs have failed to satisfy their burden
to show the right was clearly established as to these defendants.
Although the issue was fairly joined in the apposite motion to dismiss (see Motion To Dismiss Amended Complaint at 8-10
[#57], filed May 12, 2016), plaintiffs’ response failed to address

App. 55
In the absence of a viable claim that either Ms.
Adame or Officer Garza violated their constitutional
rights, it should go without saying that plaintiffs cannot sustain a claim for civil conspiracy to violate those
rights against them. See United Brotherhood of
Carpenters & Joiners of America, Local 610, AFLCIO v. Scott, 463 U.S. 825, 833, 103 S.Ct. 3352, 3358,
77L.Ed.2d 1049 (1983). Moreover, in the absence of
an underlying constitutional violation by one of its
employees, Douglas County, Colorado, cannot be held
liable for allegedly maintaining an unconstitutional
policy or practice. Trigalet v. City of Tulsa, Oklahoma, 239 F.3d 1150, 1155-56 (10th Cir.), cert. denied, 122 S.Ct. 40 (2001). These claims therefore also
must be dismissed.
As for the motion to dismiss for lack of personal
jurisdiction filed by defendants Monica Gildner, Angela
Webb, and Tina Abney (the “Kansas defendants”),
there is no need for this court to engage in a festooned
reiteration of the magistrate judge’s incisive and wellreasoned analysis. It is pellucid that this court lacks
personal jurisdiction over these defendants. All Mses.
Gildner’s, Webb’s, and Abney’s relevant actions took
place in Kansas, under the auspices of a Kansas court,
for the purpose of returning the children to Kansas.
The mere fortuity that plaintiffs happened to be staying temporarily in Colorado at the time is far too
ephemeral a contact to support a conclusion that the
Kansas defendants purposefully directed their actions
this claim at all, much less attempt to demonstrate the right was
clearly established.

App. 56
toward this forum. Even if it did, I agree with the magistrate judge that exercising personal jurisdiction over
these defendants in this forum would offend due process.
Neither plaintiffs nor the Kansas defendants have
objected to the magistrate judge’s recommendation
that these claims be transferred to the District of Kansas as contemplated by 28 U.S.C. § 1631. This recommendation also is prescient and well-taken. Given that
the statute of limitations may have expired since the
case was filed, the interests of justice plainly dictate
that these claims should be transferred rather than
dismissed outright.
While the substantive viability of plaintiffs’ claims
against the Kansas defendants thus remains for determination by a court of competent jurisdiction, the
Douglas County defendants are entitled to a judgment
in their favor. See Cain v. Graf, 1998 WL 654987 at
*2 (10th Cir. Sept. 21, 1998). It is pellucid in this instance that “the claims under review [are] separable
from the others remaining to be adjudicated and . . .
the nature of the claims already determined [is] such
that no appellate court would have to decide the same
issues more than once even if there were subsequent
appeals.’ ” Stockman’s Water Co., LLC v. Vaca Partners, L.P., 425 F.3d 1263, 1265 (10th Cir. 2005) (quoting Curtiss-Wright Corp. v. General Electric Co.,
446 U.S. 1, 8, 100 S.Ct. 1460, 1465, 64 L.Ed.2d 1 (1980)
(alterations in Stockman’s). There is no just reason to
delay entry of judgment in favor of the Douglas County
defendants while the factually distinct claims against

App. 57
the Kansas defendants are adjudicated in a different
federal court. Pursuant to Fed. R. Civ. P. 54(b), I therefore will direct the entry of final judgment in favor of
the Douglas County defendants.
THEREFORE, IT IS ORDERED as follows:
1. That the Recommendation of United States
Magistrate Judge re Motion to Dismiss [#91], filed
January 27, 2017, is approved and adopted as an order
of this court;
2. That the objections stated in Plaintiffs’ Objections to the Recommendation on Pending
Motions [#93], filed February 10, 2017, are overruled;
3. That the Motion to Dismiss Amended Complaint [#57], filed May 12, 2016 by defendants Lesa
Adame, Carl Garza, and Douglas County, Colorado, is
granted;
4. That the Motion to Dismiss First Amended
Complaint with Memorandum in Support or, in
the Alternative, Motion for Summary Judgment
[#65], filed May 26, 2016, by defendants Tina Abney,
Monica Gildner, and Angela Webb is granted in part
and denied in part as follows:
a. That the motion is granted to the extent
it seeks dismissal for lack of personal jurisdiction over these defendants in this forum; and
b. That in all other respects, the motion is
denied without prejudice;

App. 58
5. That plaintiffs’ claims against defendants
Lesa Adame, Carl Garza, and Douglas County, Colorado, are dismissed with prejudice;
6. That plaintiffs’ claims against defendants
Tina Abney, Monica Gildner, and Angela Webb are dismissed without prejudice;
7. That, there being no just reason for delay, pursuant to Fed. R. Civ. P. 54(b), judgment with prejudice
shall enter on behalf of defendants Lesa Adame, Carl
Garza, and Douglas County, Colorado, and against
plaintiffs, N.E.L. and M.M.A., on all claims for relief
and causes of action asserted in this action; and
8. That this case is transferred to the United
States District Court for the District of Kansas (500
State Ave, Kansas City, Kansas 66101).
Dated March 13, 2017, at Denver, Colorado.
BY THE COURT:
/s/ Bob Blackburn
Robert E. Blackburn
United States District Judge

App. 59
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Action No. 15-cv-02847-REB-CBS
N.E.L. and M.M.A.,
Plaintiffs,
v.
DOUGLAS COUNTY, COLORADO;
MONICA GILDNER, in her individual capacity;
ANGELA WEBB, in her individual capacity;
TINA ABNEY, in her individual capacity;
LESA ADAME, in her individual capacity; and
CARL GARZA, in his individual capacity.
Defendants.
RECOMMENDATION ON
PENDING MOTIONS TO DISMISS
(Filed Jan. 27, 2017)
Magistrate Judge Craig B. Shaffer
This matter comes before the court on the Motion
to Dismiss Amended Complaint (doc. # 57) filed by
Defendants Lesa Adame, Carl Garza, and Douglas
County (hereinafter referred to collectively as the
“Douglas County Defendants”), and the Motion to
Dismiss First Amended Complaint with Memorandum
in Support or, in the alternative, Motion for Summary
Judgment (doc. # 65) filed by Defendants Monica
Gildner, Angela Webb, and Tina Abney (hereinafter referred to collectively as the “Kansas Defendants”).
These motions have been fully briefed by the parties.

App. 60
On March 1, 2016, this matter was referred to the
Magistrate Judge to, inter alia, “hear and make recommendations on dispositive matters that have been referred.” By separate memoranda, both of the pending
motions have been referred to this court for recommendation. I have carefully reviewed the motions, all related briefing and attached exhibits, the entire court
file, and the applicable case law.
PROCEDURAL HISTORY
This action was commenced with the filing of the
original Complaint on December 1, 2015. The First
Amended Complaint (doc. #55), filed on April 29, 2016,
asserts six claims for relief. The First Claim asserts a
Fourth Amendment violation and contends that all Defendants “approved and/or conducted an unlawful seizure . . . by which Plaintiffs were deprived of their
liberty without due process when they were prohibited
. . . from any movement or travel with their mother, father and grandparents.” The Second Claim is brought
against Defendants Gildner, Webb and Abney and asserts that Plaintiffs’ Fourth Amendment rights were
violated when they were “held against their will for
five days prior to a hearing on the CINC petitions.” The
Third Claim is brought against Defendants Gildner,
Webb, Abney, Adame, and Garza and asserts a violation of Plaintiffs’ Fourteenth Amendment right to
maintain a familial relationship with their parents,
siblings, and grandparents. The Fourth Claim alleges
that Defendants Gildner, Abney, Webb, Adame and Garza
conspired to deprive Plaintiffs of their constitutional

App. 61
rights. The Fifth Claim contends that Plaintiffs are entitled to exemplary damages because “[t]he actions of
Gildner, Abney, Webb, Adame and Garza were attended
by retaliation, malice, ill will, intent and/or recklessness, [and] callous disregard of Plaintiffs’ rights, or indifference to Plaintiffs’ rights.” Finally, the Sixth Claim
alleges that Defendant Douglas County violated Plaintiffs’ Fourth Amendment rights by adopting an unlawful policy that authorized county sheriff ’s personnel “to
seize Plaintiffs based on an out-of-state ex parte order
in violation of the United States Constitution and Colorado law,” or through deliberate indifference by failing
to “adopt a policy requiring . . . or in failing to train
personnel . . . to comply with the United States Constitution and Colorado law.”
As the parties are well-familiar with the underlying circumstances of this case, I will only briefly
summarize those facts and circumstances that are necessary to place the pending motions and this Recommendation in context.
It appears that Mr. and Mrs. Doe had their first
contact with the Kansas Department of Social and
Rehabilitation Services1 in June 2008 after one of the
Doe children2 began exhibiting troubling behavior and
making troubling comments that allegedly stemmed
1

This state agency is now called the Kansas Department of
Children and Families, and is referenced in the First Amended
Complaint as “SRS/DCF.” See First Amended Complaint, at ¶5.
2
The Plaintiffs in this action, N.E.L. and M.M.A., are two of
the Does’ ten children. Although Plaintiffs have reached the age
of majority, during the relevant time period, both were minors.

App. 62
from improper interaction with that child by one of
Mrs. Doe’s relatives. See First Amended Complaint at
¶¶ 17 and 21. Later, other Doe children reported having suffered abuse from the same suspected relative.
Id. at ¶¶ 38, 65 and 77. During the time period relevant to this case, the Kansas Defendants were employed by SRS/DCF. The Kansas Defendants’ contacts
with the Doe family continued into 2009 and eventually became contentious. As some point, Mr. Doe apparently “communicated to [Ms.] Webb and [Ms.] Abney
that he did not wish to have further contact with [Ms.]
Gildner due to the animosity created by her antagonistic, biased and baseless positions.” Id. at ¶ 55. In
February 2009, Mr. Doe “filed a formal complaint with
SRS/DCF” against Ms. Gildner. Id. at ¶ 66. The actual
cause of this deteriorating situation is a matter of some
dispute and wholly irrelevant to the disposition of the
pending motions.
On or about April 20, 2009, ten Child-in-Need of
Care (CINC) petitions were filed in the District Court
for Johnson County, Kansas by the District Attorney’s
Office. Those petitions “requested termination of Mr.
and Mrs. Doe’s parental rights, appointment of a permanent custodian for Plaintiffs and their siblings, temporary removal of Plaintiffs and their siblings from
their Parents’ custody, and an order of child support.”
Id. at ¶ 86. The Johnson County District Court set a
non-emergency hearing on these petitions for May 11,
2009. On May 5, 2009, SRS/DCF sought Ex Parte
Orders of Protective Custody in the District Court of
Johnson County. Although Mr. and Mrs. Doe dispute

App. 63
the information proffered in support of the petitions for
those orders, the District Court entered Ex Parte Orders on May 5, 2009.
On that same day, Mrs. Doe and her children were
visiting long-standing family friends, Dr. and Mrs. G,
who were living in unincorporated Douglas County,
Colorado. At some point, Defendants Adame and Garza
were made aware of the Ex Parte Orders issued by the
Johnson County District Court and they went to the
G’s residence.3 After some discussion on May 6, 2009,
Mrs. Doe left the G residence. Later that same day, Dr.
G and his wife drove the Doe children back to Kansas
where they were placed in the temporary custody of
SRS/DCF.
In moving to dismiss the First Amended Complaint, the Douglas County Defendants contend that
Plaintiffs’ claims are barred by the applicable statute
of limitations, as well as the doctrines of absolute and
qualified immunity. The Douglas County Defendants
further insist that the First Amended Complaint fails
to state a viable claim for relief against Douglas
County. The Kansas Defendants have moved to dismiss the claims against them based upon a lack of personal jurisdiction. In the alternative, the Kansas
Defendants insist that Plaintiffs’ claims are barred by
the statute of limitations and the doctrines of absolute
3

On May 6, 2009, Ms. Adame was a social worker either employed by the Colorado Department of Social Services or the
Douglas County Department of Human Services, and Mr. Garza
was employed by the Douglas County Sheriff ’s Office. See First
Amended Complaint, at ¶¶ 10 and 11.

App. 64
or qualified immunity, and that Plaintiffs’ alleged
Fourth Amendment violation fails to state a cognizable
claim for relief. Plaintiffs naturally take strong exception to all of these arguments.
ANALYSIS
I.

The Douglas County Defendants’ Motion

Rule 12(b)(6) states that a court may dismiss a
complaint for “failure to state a claim upon which relief
can be granted.” See Fed. R. Civ. P. 12(b)(6). In deciding
a motion under Rule 12(b)(6), the court must “accept as
true all well-pleaded factual allegations . . . and view
these allegations in the light most favorable to the
plaintiff.” Casanova v. Ulibarri, 595 F.3d 1120, 1124-25
(10th Cir. 2010) (quoting Smith v. United States, 561
F.3d 1090, 1098 (10th Cir. 2009)). However, a plaintiff
may not rely on mere labels or conclusions “and a formulaic recitation of the elements of a cause of action
will not do.” See Bell Atl. Corp. v. Twombly, 550 U.S.
544, 555 (2007). Rather, the court’s analysis is two-fold.
First, the court identifies “the allegations in
the complaint that are not entitled to the assumption of truth,” that is those allegations
that are legal conclusions, bare assertions, or
merely conclusory. Second, the court considers
the factual allegations “to determine if they
plausibly suggest an entitlement to relief.” If
the allegations state a plausible claim for relief, such claim survives the motion to dismiss.
Notwithstanding, the court need not accept

App. 65
conclusory allegations without supporting
factual averments.
Wood v. Wells Fargo Bank, N.A., No. 13-cv-01731-CMAKMT, 2013 WL 5763101, at *2 (D. Colo. Oct. 23, 2013)
(internal citations omitted).
As the Tenth Circuit explained in Ridge at Red
Hawk, L.L.C. v. Schneider, 493 F.3d 1174, 1177 (10th
Cir. 2007),
the mere metaphysical possibility that some
plaintiff could prove some set of facts in support of the pleaded claims is insufficient; the
complaint must give the court reason to believe that this plaintiff has a reasonable likelihood of mustering factual support for these
claims.
“The burden is on the plaintiff to frame ‘a complaint
with enough factual matter (taken as true) to suggest’
that he or she is entitled to relief.” Robbins v. Oklahoma, 519 F.3d 1242, 1247 (10th Cir. 2008) (quoting
Bell Atl. Corp., 555 U.S. at 556). The ultimate duty of
the court is to “determine whether the complaint sufficiently alleges facts supporting all the elements necessary to establish an entitlement to relief under the
legal theory proposed.” Forest Guardians v. Forsgren,
478 F.3d 1149, 1160 (10th Cir. 2007).
Plaintiffs attached to the First Amended Complaint a redacted Ex Parte Order of Protective Custody,
dated May 5, 2009 (Exhibit 1) (doc. #55-1) and a redacted document entitled Colorado Department of Social Services, Douglas County Department of Human

App. 66
Services Safety Plan, dated May 6, 2009 (Exhibit 2)
(doc. #55-2). The parties also have attached exhibits
to their briefs in support of or in opposition to the
Douglas County Defendants’ motion to dismiss. Those
exhibits consist of judicial records from Colorado’s
Eighteenth Judicial District (Defendants’ Exhibit A,
doc. # 57-1 and Plaintiffs’ Exhibit 3, doc. #67-3) and the
District Court for Johnson County, Kansas (Plaintiffs’
Exhibit 2, doc. #67-2 and Plaintiffs’ Exhibit 4, doc. #674). The parties also included as exhibits excerpts from
the Colorado Code of Regulations, 12 CCR 2509-2
(Defendants’ Exhibit B, doc. #57-2 and Exhibit C, doc.
#76-1).4
Generally, a court considers only the contents of
the complaint when ruling on a Rule 12(b)(6) motion.
Gee v. Pacheco, 627 F.3d 1178, 1186 (10th Cir. 2010).
Exceptions to this general rule include: documents incorporated by reference in the complaint; documents
referred to in and central to the complaint, when
no party disputes their authenticity; and “matters of
which a court may take judicial notice.” Id. (quoting
Tellabs, Inc. v. Makor Issues & Rights, Ltd., 551 U.S.
308, 322 (2007)). Cf. Gilbert v. Bank of Am. Corp., No.
11-cv-00272-BLW, 2012 WL 4470897, at *2 (D. Idaho
Sept. 26, 2012) (noting that a court may take judicial
notice “of the records of state agencies and other undisputed matters of public record” without transforming a
4

The Kansas Defendants and Plaintiffs also attached exhibits to their briefs in support of or in opposition to the Kansas Defendants’ motion to dismiss. Most of those exhibits are judicial
records subject to judicial notice by this court.

App. 67
motion to dismiss into a motion for summary judgment). Cf. Catchai v. Fort Morgan Times, No. 15-cv00678-MJW, 2015 WL 6689484, at *4 (D. Colo. Nov. 3,
2015) (in ruling on the pending motion to dismiss, the
court acknowledged its ability to take judicial notice of
court records from Morgan County District Court);
Reyes v. Hickenlooper, 84 F. Supp. 3d 1204, 1207 (D.
Colo. 2015) (noting that the court could take judicial
notice of court filings from other cases without converting a Rule 12(b)(6) motion into a summary judgment
motion). While the court has read and considered the
parties’ exhibits, I will analyze the issues and arguments under the standard governing motions to dismiss under Rule 12(b)(6).
A. Defendants’ Claim to Absolute Immunity
Defendants Adame and Garza contend that all
claims against them must be dismissed based on the
doctrine of absolute or quasi-judicial immunity because on May 6, 2009 they were simply executing orders issued by a Kansas court. Plaintiffs argue in
response that “absolute immunity does not apply because the Kansas Ex Parte Orders were not facially
valid” and because “Adame and Garza exceeded the
scope of the orders.” See Response to Douglas Defendants’ Motion to Dismiss, at 12.
The Tenth Circuit has held that “enforcing a court
order or judgment is intrinsically associated with a
judicial proceeding” and that “[a]bsolute immunity
for officials assigned to carry out a judge’s orders is

App. 68
necessary to insure that such officials can perform
their function without the need to secure permanent
legal counsel.” Valdez v. City & Cty. of Denver, 878 F.2d
1285, 1289 (10th Cir. 1989) (“it is simply unfair to spare
the judges who give orders while punishing the officers
who obey them”). See also Moss v. Kopp, 559 F.3d 1155,
1163-1168 (10th Cir. 2009) (holding that “[ j]ust as
judges acting in their judicial capacity are absolutely
immune from liability under section 1983, ‘official[s]
charged with the duty of executing a facially valid
court order enjoy [ ] absolute immunity from liability
for damages in a suit challenging conduct prescribed
by that order”) (quoting Turney v. O’Toole, 898 F.2d
1470, 1472 (10th Cir. 1990). “The ‘fearless and unhesitating execution of court orders is essential if the
court’s authority and ability to function are to remain
uncompromised.’ ” Coverdell v. Dep’t of Soc. & Health
Servs., 834 F.2d 758, 765 (9th Cir. 1987). Cf. Smeal v.
Alexander, No. 5:06 CV 2109, 2006 WL 3469637, at *6
(N.D. Ohio Nov. 30, 2006) (“quasi-judicial immunity extends to those persons performing tasks so integral or
intertwined with the judicial process that they are considered an arm of the judicial officer who is absolutely
immune”).
“[F]or the defendant state official to be entitled to
quasi-judicial immunity, the judge issuing the disputed order must be immune from liability in his or
her own right, the officials executing the order must
act within the scope of their own jurisdiction, and the
officials must only act as prescribed by the order in
question.” Moss, 559 F.3d at 1163. The doctrine of

App. 69
quasi-judicial immunity further requires that the
court order in question be “facially valid.” Id. at 1164.
The Tenth Circuit has recognized, however, that a
court order may be “facially valid” even if that order is
infirm or erroneous as a matter of state law.
“State officials ‘must not be required to act as
pseudo-appellate courts scrutinizing the orders of judges,’ but subjecting them to liability
for executing an order because the order did
not measure up to statutory standards would
have just that effect.” Further, “[t]o allow
plaintiffs to bring suit any time a state agent
executes a judicial order that does not fulfill
every legal requirement would make the
agent ‘a lightning rod for harassing litigation
aimed at judicial orders.” “Simple fairness requires that state officers ‘not be called upon to
answer for the legality of decisions which they
are powerless to control.’ ”
Id. at 1165 (internal citations omitted).
Plaintiffs contend that the First Amended Complaint “alleges specifically that the [Ex Parte Orders]
were facially invalid by being issued from a Kansas
court and being incomplete, such that Adame and
Garza could see for themselves that no one from ‘Kansas State Social Services’ was granted custody by the
[Ex Parte Orders].” See Plaintiffs’ Response to Douglas
Defendants’ Motion to Dismiss, at 14 (emphasis in
original). Plaintiffs also argue a Kansas judge “had no
jurisdiction to issue ex parte orders for execution in
Colorado.” Id. at 15 (emphasis in original).

App. 70
The Ex Parte Orders in question purportedly were
issued “pursuant to K.S.A. 38-2242”5 and specifically
state that the District Court of Johnson County, Kansas found, in part, that “[r]easonable efforts are not required to maintain the child in the home because an
emergency exists which threatens the safety of the
child,” that “remaining in the home or returning home
would be contrary to the welfare of the child,” and that
“immediate placement is in the best interest of the
child.” See Exhibit 1 (doc. #55-1) attached to First
Amended Complaint. The Orders further noted allegations of “physical, sexual, mental or emotional abuse.”
These documents bear the caption “EX PARTE ORDER OF PROTECTIVE CUSTODY and the signature
of “Kathleen L. Sloan, Judge of the District Court,” and
apparently ere [sic] time-stamped by the Clerk of the
District Court on “2009 May -5 PM 3:40.” Although
these court filings set forth “findings” of fact, Judge Sloan
did not direct any action to be taken based upon those
findings. So, for example, the Ex Parte Order did not
explicitly require that the identified child be taken into
5

This statute provides that a court “upon verified application, may issue ex parte an order directing that a child be held in
protective custody and, if the child has not been taken into custody, an order directing that child be taken into custody.” A court
may issue such an ex parte order “only after the court has determined there is probable cause to believe the allegations in the application are true.” “If the court issues an order of protective
custody, the court may also enter an order restraining any alleged
perpetrator of physical, sexual, mental or emotional abuse of the
child from residing in the child’s home; visiting, contacting, harassing or intimidating the child, other family member or witness;
or attempting to visit, contact, harass or intimidate the child,
other family member or witness.”

App. 71
custody. The district judge also did not check the box
that “FURTHER ORDERED that any duly authorized
law enforcement officer of the jurisdiction where the
child(ren) can be found shall take the child(ren) named
above into custody and deliver the child(ren) to” a specified location or government official. Judge Sloan also
did not indicate that a “restraining order shall be filed
against” anyone.” In short, from the face of the Ex Parte
Order, it is difficult to discern exactly what actions
Judge Sloan required or even contemplated.
As this matter comes before the court on a motion
to dismiss, I must confine my analysis to the well-pled
facts (but not conclusory allegations) contained in the
First Amended Complaint and the exhibits properly
before the court. The court is required to construe
those facts and documents in a light most favorable to
Plaintiffs.
The First Amended Complaint contends that the
Ex Parte Orders issued by Judge Sloan were not based
upon probable cause and falsely presented or omitted
material facts concerning Mr. and Mrs. Doe and their
children. There are no well-pled facts in the First
Amended Complaint that would suggest Defendants
Adame or Garza were aware of these alleged deficiencies in the Ex Parte Orders. But see Moss, 559 F.3d at
1165 (“Simple fairness requires that state officers ‘not
be called upon to answer for the legality of decisions
which they are powerless to control.’ ”).
However, there is a fundamental problem with the
Douglas County Defendants’ invocation of quasi-judicial

App. 72
immunity. As the Tenth Circuit has explained, “an official charged with the duty of executing a facially valid
court order enjoys absolute immunity from liability for
damages in a suit challenging conduct prescribed by
that order.” Valdez, 878 F.2d at 1286 (emphasis added).
Stated differently the government official is entitled to
quasi-judicial immunity because he or she is taking actions commanded by the court orders in question. Cf.
Martin v. Bd. of Cty. Comm’rs, 909 F.2d 402, 405 (10th
Cir. 1990) (holding that quasi-judicial immunity protects defendants from damage claims directed to the
conduct prescribed in the court order itself, but not to
the manner of its execution). Here, Judge Sloan’s Ex
Parte Orders simply make findings of fact; nothing is
specifically or inferentially “ordered.”6 Therefore, the
6

At some point, Judge Sloan apparently realized that her Ex
Parte Orders did not mandate any specific action. Exhibits attached to the Kansas Defendants’ motion to dismiss include two
documents captioned “Pick Up Order,” dated May 5, 2009 and
time stamped 3:40 PM. These Orders state that “on the 5TH DAY
OF MAY, 2009, [each Plaintiff ] was placed in the care, custody
and control of [the State of Kansas] with authority for suitable
placement” and direct “ANY LAW ENFORCEMENT AGENCY”
to take said child into your custody and transport said child to
court approve {sic] Juvenile Intake and Assessment Center.” See
Exhibits I and J (doc. ## 64-9 and 64-10) attached to Motion to
Dismiss. Another exhibit proffered by the Kansas Defendants
consists of a “Journal Entry Nunc Pro Tunc” filed in the District
Court of Johnson County on May 8, 2009 purporting to “correct[ ]
the Ex Parte Orders of Custody filed on May 5, 2009 . . . to read
as follows: THE COURT HEREBY ORDERS THAT the above
named children shall be placed in the custody of: The Secretary
of Social and Rehabilitation Services.” See Exhibit K (doc. # 6411), attached to Motion to Dismiss. The foregoing orders are
not referenced in the First Amended Complaint, and it is not
clear whether Defendants Adame and Garza ever received the

App. 73
rationale for quasi-judicial immunity seems to be lacking in this case. I recommend that the motion to dismiss be denied to the extent Defendants Adame and
Garza are relying in whole or in part on the doctrine of
absolute or quasi-judicial immunity.
B. Defendants’ Claim to Qualified Immunity
Even if Defendants Adame and Garza are not protected by quasi-judicial immunity, they are entitled to
qualified immunity for conduct performed within the
scope of their official duties. “The doctrine of qualified
immunity protects government officials from liability
for civil damages insofar as their conduct does not violate clearly established statutory or constitutional rights
of which a reasonable person would have known.” Messerschmidt v. Millender, 565 U.S. 535, 132 S. Ct. 1235,
1244 (2012) (internal quotation marks and citations
omitted). See also Duncan v. Gunter, 15 F.3d 989, 992
(10th Cir. 1994) (same). Stated differently, the affirmative defense of qualified immunity “protects all but the
plainly incompetent [government official] or those who
knowingly violate the law.” Holland ex rel. Overdorff v.
Harrington, 268 F.3d 1179, 1185 (10th Cir. 2001).
Whether Defendants Adame and Garza are entitled
to qualified immunity is a legal question. Wilder v.
Turner, 490 F.3d 810, 813 (10th Cir. 2007).

foregoing court filings prior to arriving at the G’s residence on
May 6, 2009. But again, on a motion to dismiss the court must
construe the allegations in a light most favorable to Plaintiffs.

App. 74
In resolving a motion to dismiss based on qualified
immunity, the first prong of the court’s analysis asks
“whether the facts that a plaintiff has alleged . . . make
out a violation of a constitutional right.” Pearson v. Callahan, 555 U.S. 223, 232 (2009). This determination
turns on the substantive law regarding the constitutional right at issue. See McGettigan v. Di Mare, 173
F. Supp. 3d 1114, 1121 (D. Colo. 2016) (citing Casey v.
City of Fed. Heights, 509 F.3d 1278, 1282-83 (10th Cir.
2007)).
Under the second prong of the qualified immunity doctrine, the plaintiff must show that the right at
issue was “clearly established” at the time of the defendant’s alleged violation.7 Saucier v. Katz, 533 U.S.
194, 201 (2001), overruled on other grounds by Pearson
v. Callahan, 555 U.S. 223 (2009). “The clearly established inquiry examines whether the contours of the
constitutional right were so well-settled, in the particular circumstances presented, that every reasonable
. . . official would have understood that what he is doing violates that right.” Lane v. Yohn, No. 12-cv-02183MSK-MEH, 2013 WL 4781617, at *3 (D. Colo. Sept. 6,
2013) (internal quotation marks and citation omitted),
appeal dismissed, No. 13-1392 (10th Cir. Oct. 31, 2013).
“[T]he salient question . . . is whether the state of
the law at the time of [the] incident provided ‘fair
7

The court has the discretion to decide “which of the two
prongs of the qualified immunity analysis should be addressed
first in light of the circumstances in the particular case at hand.”
Herrera v. City of Albuquerque, 589 F.3d 1064, 1070 (10th Cir.
2009). However, “[q]ualified immunity is applicable unless” the
plaintiff can satisfy both prongs of the inquiry. Id.

App. 75
warning’ ” to Defendants Adame and Garca [sic] that
their alleged conduct was unconstitutional. Tolan v.
Cotton, ___ U.S. ___, 134 S. Ct. 1861, 1866 (2014) (quoting Hope v. Pelzer, 536 U.S. 730, 741 (2002)). “To satisfy
this prong, the burden is on the plaintiff to point to Supreme Court or Tenth Circuit precedent (or the clear
weight of other circuit courts) that recognizes an actionable constitutional violation in the circumstances
presented.” Havens v. Johnson, No. 09-cv-01380-MSKMEH, 2014 WL 803304, at *7 (D. Colo. Feb. 28, 2014)
(citing Schwartz v. Booker, 702 F.3d 573, 587-88 (10th
Cir. 2012)), aff ’d, 783 F.3d 776 (10th Cir. 2015). “It is
not necessary for the plaintiff to adduce a case with
identical facts, but the plaintiff must identify some authority that considers the issue not as a broad general
proposition, but in a particularized sense. . . .” Havens,
2014 WL 803304, at *7. There must be “a substantial
correspondence between the conduct in question and
prior law allegedly establishing that the defendant’s
actions were clearly prohibited.” Duncan v. Gunter,
15 F.3d 989, 992 (10th Cir. 1994) (internal quotation
marks and citations omitted).
In the past, the Tenth Circuit has employed a “sliding scale” in applying the second prong of the qualified
immunity doctrine: “[t]he more obviously egregious the
conduct in light of prevailing constitutional principles,
the less specificity is required from prior case law to
clearly establish the violation.” Casey, 509 F.3d at 1284
(quoting Pierce v. Gilchrist, 359 F.3d 1279, 1298 (10th
Cir. 2004)). “As long as the unlawfulness of the [defendant’s] actions was ‘apparent’ ‘in light of pre-existing

App. 76
law,’ then qualified immunity is inappropriate.” Estate
of Booker v. Gomez, 745 F.3d 405, 433-34 (10th Cir.
2014) (quoting Hope, 536 U.S. at 739).
The Supreme Court recently shed additional light
on how the second prong of the qualified immunity doctrine should be applied in the context of a Fourth
Amendment claim. In vacating the decision of a divided panel of the Tenth Circuit, the Supreme Court in
White v. Pauly, 580 U.S. ___, 2017 WL 69170, at *4 (Jan.
9, 2017), reiterated that clearly established law
“should not be defined ‘at a high level of generality’ ”
and “must be ‘particularized’ to the facts of the case.”
Otherwise, “ ‘[p]laintiffs would be able to convert the
rule of qualified immunity . . . into a rule of virtually
unqualified liability simply by alleging violation of extremely abstract rights.’ ” Id. The lower court in White
“failed to identify a case where an officer acting under
similar circumstances as [the defendant] was held to
have violated the Fourth Amendment.” Id. at *5. The
Supreme Court’s per curiam opinion emphasized that
White “present[ed] a unique set of facts and circumstances” and that “alone should have been an important indication to [lower courts] that [the
defendant] did not violate a ‘clearly established’ right.”
Id.

App. 77
1. Plaintiffs’ First Claim Alleging A Fourth
Amendment Violation
Plaintiffs’ First Claim asserts that Defendants
Adame and Garza violated their Fourth Amendment
right to be free from unlawful seizure.
A violation of the Fourth Amendment requires an
intentional acquisition of physical control. Brower v.
County of Inyo, 489 U.S. 593, 596 (1989). A seizure for
purposes of the Fourth Amendment occurs when “government actors have, ‘by means of physical force or
show of authority, . . . in some way restrained the liberty of a citizen.’ ” JL v. N.M. Dep’t of Health, 165
F. Supp. 3d 996, 1042 (D. N.M. 2015) (quoting Graham
v. Connor, 490 U.S. 386, 395 n. 10 (1989)).
[A] person is “seized” only when, by means of
physical force or a show of authority, his freedom of movement is restrained. Only when
such restraint is imposed is there any foundation whatsoever for invoking constitutional
safeguards. The purpose of the Fourth Amendment is not to eliminate all contact between
the policy [sic] and the citizenry, but “to prevent arbitrary and oppressive interference by
enforcement officials with the privacy and personal security of individuals.” * * * We conclude that a person has been “seized within
the meaning of the Fourth Amendment only if,
in view of all of the circumstances surrounding
the incident, a reasonable person would have
believed that he was not free to leave. Examples of circumstances that might indicate a seizure, even where the person did not attempt to

App. 78
leave, would be the threatening presence of
several officers, the display of a weapon by an
officer, some physical touching of the person of
the citizen, or the use of language or tone of
voice indicating that compliance with the officer’s request might be compelled.
United States v. Mendenhall, 446 U.S. 544, 553-54
(1980) (internal citations omitted). Cf. United States v.
Beamon, 576 F. App’x 753, 757 (10th Cir. 2014) (“until
a citizen’s liberty is actually restrained, there is no seizure” for purposes of the Fourth Amendment).
Every “seizure,” however, does not necessarily
equate to a constitutional violation, because the Fourth
Amendment only prohibits “unreasonable” seizures.
See JL, 165 F. Supp. 3d at 1043. Cf. Kernats v. O’Sullivan, 35 F.3d 1171, 1177 (7th Cir. 1994) (to state a violation of the Fourth Amendment, a plaintiff must
allege both that a defendant’s conduct constituted a
seizure and that the seizure was unreasonable). The
Fourth Amendment’s “central requirement” is one of
reasonableness. See Brower, 489 U.S. at 599 (emphasizing that a seizure “alone is not enough for § 1983 liability; the seizure must be unreasonable”) (internal
quotation marks omitted). “[C]ourts have long recognized that the reasonableness of a seizure depends not
just on why or when it is made, but also on how it is
accomplished.” Fisher v. City of Las Cruces, 584 F.3d
888, 894 (10th Cir. 2009) (citation omitted). “[T]o determine whether a seizure is reasonable, which is the
Fourth Amendment’s ‘ultimate standard,’ a court must
balance the government’s interest in conducting the

App. 79
seizure against the individual’s interest in being free
from arbitrary governmental interference.” JL, 165
F. Supp. 3d at 1043 (internal citations omitted).
The First Amended Complaint alleges the following pertinent facts which, for purposes of the pending
motion, the court will presume are true and construe
in a light most favorable to Plaintiffs. On May 6, 2009,
Mrs. Doe and all of her children were visiting Dr. and
Mrs. G at their home in Douglas County, Colorado. See
First Amended Complaint at ¶ 123. On that same day,
Defendants Adame and Garza, “at the instigation of
the Kansas SRS/DCF, Gildner, Abney and Webb,” went
to the home of Dr. and Mrs. G “to carry out official business on behalf of the Douglas County Sheriff ’s Office,
the Department of Human Services for Douglas
County, and the Colorado Department of Social Services.” Id. at ¶ 125. Either Defendant Adame or Defendant Garza told Dr. G that “they were in possession
of a court order from the State of Kansas to seize custody of all ten of the Doe’s children and demanded
entry and custody of the children.”8 Id. at ¶ 132. Defendant Adame also “represented to Dr. G that she had
been contacted by the Kansas SRS/DCF.” Id. at ¶ 133.
On the advice of an “attorney-friend [on the] telephone,
Dr. G asked Defendants if they had a warrant or an
order issued by a Colorado court. Id. at ¶ 135. Defendants allegedly responded that they were not required
8

Based upon other allegations in the First Amended Complaint, it would appear that Plaintiffs are alluding to the Ex Parte
Orders issued by the District Court for Johnson County, Kansas
on May 5, 2009. See First Amended Complaint at ¶¶ 150 and 172.

App. 80
to have a warrant to enter the residence and “that they
‘do this all the time.’ ” Id. at ¶¶ 136-137. Plaintiffs allege that at some point during this exchange, Defendant Garza “became belligerent, raised his voice and
threatened Dr. G with arrest or contempt for interfering with law enforcement.” Id. at ¶ 138. Deputy Garza
allegedly also stated that he and Defendant Adame
were “coming in and we’re taking these kids.” Id. at
¶ 139. Throughout the incident, Defendant Garza was
wearing a sidearm. Id. at ¶ 130. Plaintiffs allege that
“[d]ue to the Colorado Agents’ visible weapon, their
false claims of legal authority, their use of force, intimidation, and loud and belligerent demeanor, Dr. G was
powerless to prevent them from entering his house
over his objection.” Id. at ¶ 140.
Once inside the G’s residence, Defendants Adame
and Garza “falsely claimed that Plaintiffs and the
other Doe children were in the custody of the State of
Kansas.” Id. at ¶ 143. Although they allegedly found no
evidence of “emergency conditions” that threatened the
safety of the Plaintiffs or the other Doe children, Defendants Adame and Garza “commanded Mrs. Doe to
vacate the G’s home immediately.” Id. at ¶ 142. Plaintiffs allege that Defendants Adame and Garza Defendants “issued summary orders inside the G’s house, both
verbal and written, without a supporting court order,
without prior notice, hearing or probable cause, which
the G’s, Mrs. Doe and the Doe children were forced to
obey by virtue of the Colorado Agents’ threats of force,

App. 81
intimidation and false claims of legal authority.”9 Id. at
¶ 146.
The First Amended Complaint also alleges that
Defendant Adame signed a document that Plaintiffs
refer to as the “Colorado Order.” That document purportedly required Dr. and Mrs. G “to take custody of the
Doe’s children” and prohibited Mrs. Doe from having
any “contact, physical or verbal with any of the children, including any communication through Dr. G and
his wife Mrs. G or any third party.” Id. at ¶¶ 147 and
151-52. Plaintiffs further assert that in a later telephone conversation with Dr. G, Defendant Adame “prohibit[ed] Dr. G from allowing Mr. Doe, or even his
parents, to talk to the children on the phone or have
any contact with them.” Id. at ¶ 153. Defendants
Adame and Garza purportedly “informed the G’s that
government agents from Kansas would arrive at an
unspecified time/day to take physical custody of the
Doe children from Dr. and Mrs. G.” Id. at ¶ 161. That
9

Compare Siliven v. Ind. Dep’t of Child Servs., 635 F.3d 921,
926-27 (7th Cir. 2011) (recognizing, in a case where a parent
agreed to remove their minor child from the family home and
place him with his grandmother [sic] home when told that the
child otherwise would be placed in foster care, that a Fourth
Amendment seizure may occur where “coercive conduct on the
part of the police . . . indicates cooperation is required;” the court
concluded, however, that the defendants’ conduct did not rise to
the level of a Fourth Amendment violation because the information available to defendants “[was] sufficient to warrant a prudent caseworker in believing that [the minor child] was in
danger”). See also Schattilly v. Daugharty, 656 F. App’x 123, 12930 (6th Cir. 2016) (holding that officials did not violate the plaintiff ’s constitutional rights by threatening removal proceedings in
order to obtain consent to temporary placement).

App. 82
same day, after the exchange with Defendants Adame
and Garza, Dr. G and his wife “personally transported
the ten Doe children to Kansas from Colorado” and “delivered the Doe children the next day to the custody of
SRS/DCF in Johnson County. Id. at ¶¶ 164 and 166.
The so-called “Colorado Order” is attached to the
First Amended Complaint as Exhibit 2. Notably, the
word “order” does not appear any where in that document. To the contrary, Exhibit 2 is captioned “Colorado
Department of Social Services, Douglas County Department of Human Services” and entitled “Safety
Plan.” In addition to the provisions cited in the First
Amended Complaint, the Safety Plan apparently required Mrs. Doe “to contact Kansas casework[sic];
Monica Gildner on 5/7/09.” At the bottom of the singlepage document is space for the signatures of “Safety
Plan Participants and Parents” which is prefaced by
the following:
Family Agreement with Safety Plan
We have participated in the development of
and reviewed this safety plan and agree to
work with the provisions and services as described above.10
10

Colorado law provides that a county department of social
services and “any person who is believed to be responsible for the
abuse or neglect of a child” may enter into a safety plan agreement.
See Colo. Rev. Stat. § 19-3-309.5. That statute further provides that
“[p]articipation in a safety plan agreement by an [sic] county department and by any person who is believed to be responsible for child
abuse or neglect shall be at the discretion of the person who is
believed to be responsible for the child abuse or neglect.”

App. 83
Exhibit 2 bears two illegible signatures and is dated
May 6, 2009.
This court finds the allegations in the First
Amended Complaint are insufficient to allege a violation of Plaintiffs’ Fourth Amendment rights by either
Defendant Adame or Garza.11 As noted earlier, Fourth
Amendment seizure requires an intentional acquisition of physical control. If I credit Plaintiffs’ own allegations, Defendants Adame and Garza announced that
Plaintiffs and the other Doe children already “were in
the custody of the State of Kansas.” See First Amended
Complaint at ¶ 143. If that allegation is accepted as
true, the Safety Plan Agreement executed on May 6,
2009 did not further restrict Plaintiffs’ freedom of
movement. That seems consistent with Dr. and Mrs.
G’s understanding and subsequent actions, since it is
undisputed that they returned Plaintiffs and their
siblings to Kansas that same night. While the First
Amended Complaint portrays the Defendants (and
particularly Deputy Garza) as intimidating, loud and
belligerent, those behaviors did not change Plaintiffs’
status or restrict their movements. I also do not find
that the Safety Plan executed on May 6, 2009 was unreasonable for purposes of the Fourth Amendment in
light of the findings contained in Judge Sloan’s Ex
Parte Orders which apparently were available to Defendants Adame and Garza.

11

It bears noting that the First Amended Complaint does not
assert any Fourth Amendment claims on behalf of Dr. and Mrs.
G, or Mrs. Doe.

App. 84
Finally, and most importantly, I do not find that
Plaintiffs have sustained their burden under the second prong of the qualified immunity analysis. As the
Supreme Court re-affirmed in White, the clearly established law element “must be ‘particularized’ to the
facts of the case” and “should not be defined ‘at a high
level of generality.” In challenging Defendants’ claim of
qualified immunity under the Fourth Amendment,
Plaintiffs’ response brief relies on four reported decisions. In Jones v. Hunt, 410 F.3d 1221 (10th Cir. 2005),
the court held that a sixteen year old student was
“seized” within the meaning of the Fourth Amendment
when she was confronted at school and coerced into returning to live with her father. The Tenth Circuit noted
that the deputy sheriff and social worker repeatedly
threatened the student with arrest if she did not comply with their directives. The Tenth Circuit also found
that the Fourth Amendment seizure “was not ‘justified
at its inception’ ” since there was no indication that the
child’s mother was suspected of abusive or neglectful
behavior. In Gomes v. Wood, 451 F.3d 1122 (10th Cir.
2006), parents brought a due process claim under the
Fourteenth Amendment after their minor daughter
was removed from their home and placed in protective
custody. In holding that the defendants were entitled
to qualified immunity from the plaintiffs’ claim for
damages under the Fourteenth Amendment, the appellate court acknowledged that “[s]ocial workers face extreme difficulties in trying simultaneously to help
preserve families and to serve the child’s best interests” and are required to “balance the parents’ interest
in the care, custody and control of their children with

App. 85
the state’s interest in protecting the children’s welfare.” Id. at 1138.
Plaintiffs also rely on two appellate decisions from
other Circuits.12 The facts in Wendrow v. Michigan Department of Human Services, 534 F. App’x 516 (6th Cir.
2013) are demonstrably different from those in this
case. In Wendrow, the Sixth Circuit held that a thirteen year old child was seized when she was removed
from class and then interviewed by prosecutors and police officers in a separate area on school grounds. The
child in question had been diagnosed with Asperger’s
syndrome. The court concluded that “it was objectively
unreasonable for [defendants] to subject [this child] to
an interview of this type without consent.” In Wooley v.
City of Baton Rouge, 211 F.3d 913 (5th Cir. 2000), a
panel of the Fifth Circuit held that a minor child was
“seized” in violation of the Fourth Amendment when
he was physically removed from his home without a
warrant or probable case. The court specifically found
that it was not “objectively reasonable for the officers
to believe that [the minor child] was in danger of imminent harm” and further noted that the judicial order
in the officers’ possession “in no way indicated that [the
12

I am not convinced these two cases demonstrate “the clearly
established weight of authority from other courts” as contemplated by the qualified immunity doctrine. See PJ ex rel. Jensen
v. Wagner, 603 F.3d 1182, 1196-97 (10th Cir. 2010) (“A right is
clearly established ‘when a Supreme Court or Tenth Circuit decision is on point, or if the clearly established weight of authority
from other courts shows that the right must be as [the] plaintiff
maintains.”) (quoting Harman v. Pollock, 586 F.3d 1254, 1260
(10th Cir. 2009).

App. 86
minor child’s] safety might be jeopardized.” Indeed, the
appellate court noted that “the police were not informed of any abuse prior to arriving” at the child’s
home.
Here, Plaintiffs were not taken into custody by Defendants Adame and Garz. Defendants were in possession of court orders that specifically found that “an
emergency exists which threatens the safety of ” the
Plaintiffs, that “remaining in the home or returning
home would be contrary to the welfare of the child, and
that “immediate placement is in the best interest of the
child.” Judge Sloan’s Ex Parte Orders also referred to
allegations of physical, sexual, mental, or emotional
abuse involving these children. Echoing the Supreme
Court’s observation in White, I find that Plaintiffs have
“failed to identify a case where an officer acting under
similar circumstances as [the defendant] was held to
have violated the Fourth Amendment.” Accordingly, I
recommend that Defendants Adame and Garza be dismissed from the first claim for relief on the basis of
qualified immunity.
2. Plaintiffs’ Third Claim Alleging A Fourteenth Amendment Violation
In their Third Claim, Plaintiffs allege that Defendants Adame and Garza “caus[ed] Plaintiffs to be deprived of their familial associations in violation of the
14th Amendment.” See First Amended Complaint at
¶ 208. More specifically, Defendants Adame and Garza
allegedly prohibited “Plaintiffs from leaving [the G’s

App. 87
residence] with their mother and . . . prohibit[ed]
Plaintiffs, through written and verbal orders, from
movement and travel with their mother, father, and
grandparents.” Plaintiffs further allege that Defendants Adame and Garza knew their “actions could and
did result in Plaintiffs’ detention.” Id. at ¶ 205.
In moving to dismiss this claim, Defendants
Adame and Garza argue, in rather cursory fashion,
that they placed only “limited restrictions” on Plaintiffs’ interaction with their parents that lasted “for a
single day when [Plaintiffs] left [Colorado] without the
permission or even knowledge of Garza or Adame.” See
Motion to Dismiss, at 9. Defendants insist that they
“are not aware of any Constitutional right to uninterrupted familial relations in the face of credible evidence of imminent danger of abuse” and that they
acted reasonably when they determined that
to protect the Plaintiffs and their siblings, it
was best to separate them from their parents
and leave them in the care of a family friend
of the parents for a short time pending further
investigation.
Id. Plaintiffs’ analysis of their Fourteenth Amendment
claim is equally perfunctory.
In addition to the factual allegations enumerated
in support of Plaintiffs’ Fourth Amendment claim, the
First Amended Complaint avers that after Plaintiffs
and their siblings returned to Johnson County on May
7, 2009, “SRS/DCF disregarded the children’s best interest and proceeded arbitrarily to separate them from

App. 88
each other, from their parents, from their grandparents, from the G.’s and from anyone known to them,
causing the children obvious mental and physical anxiety, needless worry and grief.” See First Amended
Complaint at ¶ 168.
The Due Process Clause of the “Fourteenth Amendment provides that no state shall ‘deprive any person
of life, liberty, or property, without due process of law.’ ”
Estate of DiMarco v. Wyo. Dept. of Corrections, 473 F.3d
1334, 1339 (10th Cir. 2007) (quoting the Due Process
Clause of the U.S. Const. amend. XIV, § 1). “The Supreme Court’s interpretation of this clause recognizes
two different kinds of constitutional protection: procedural due process and substantive due process.”
McKinney v. Pate, 20 F.3d 1550, 1555 (11th Cir. 1994).
“In its substantive mode, the Fourteenth Amendment
provides protection against arbitrary and oppressive
government action, even when taken to further a legitimate governmental objective.” Seegmiller v. LaVerkin
City, 528 F.3d 762, 767 (10th Cir. 2008). One strand of
the substantive due process doctrine “protects an individual’s fundamental liberty interest, while the other
protects against the exercise of governmental power
that shocks the conscience.” Id. Plaintiffs’ Third Claim
fails under either application of the substantive due
process doctrine.
The “protections of substantive due process have
for the most part been accorded to matters relating to
marriage, family, procreation, and the right to bodily
integrity.” Becker v. Kroll, 494 F.3d 904, 923 (10th Cir.
2007) (quoting Albright v. Oliver, 510 U.S. 266, 272

App. 89
(1994)). See also Planned Parenthood of Se. Penn. v. Casey, 505 U.S. 833, 851 (1992) (acknowledging that constitutional protections extend to personal decisions
relating to, inter alia, family relationships and child
rearing, and that Supreme Court precedents “have respected the private realm of family life which the state
cannot enter”). As the Tenth Circuit noted in Starkey
ex rel. A.B. v. Boulder County Social Services, 569 F.3d
1244, 1253 (10th Cir. 2009) (internal citations omitted),
“[T]he Due Process Clause of the Fourteenth
Amendment protects the fundamental right
of parents to make decisions concerning the
care, custody, and control of their children.”
But this right to family integrity “has never
been deemed absolute or unqualified.” “Courts
have recognized that the constitutional right
to familial integrity is amorphous and always
must be balanced against the governmental
interest involved.”
Cf. Tenenbaum v. Williams, 193 F.3d 581, 601 (2d Cir.
1999) (“It does not follow from the principle that brief
seizures of people may be unreasonable and therefore
violate the Fourth Amendment that brief removals [of
minor children] from their parents to protect them
from abuse are ‘without any reasonable justification in
the service of a legitimate government objective’ under
the Due Process Clause.”) (quoting County of Sacramento v. Lewis, 523 U.S. 833, 846 (1998)).
The Tenth Circuit also addressed the constitutionally protected right of familial association in Silvan W.

App. 90
v. Briggs, 309 F. App’x 216, 223 (10th Cir. 2009). There,
the court acknowledged that:
The substantive component of the Fourteenth
Amendment “protects an individual’s fundamental liberty interests” and guards “against
the exercise of governmental power that shocks
the conscience.” * * * The right of familial association arises from the concept of ordered
liberty. It is violated when government officers
intend to interfere with a protected relationship and the reason for interfering “constitute[s] an undue burden on [the plaintiffs’]
associational rights.”
Id. (internal citations omitted). In Silvan, the Tenth
Circuit found no evidence that plaintiffs’ familial association rights were unduly burdened where defendants
acted “on the basis of a reasonable suspicion of past
and impending harm.” The court concluded that plaintiffs’ associational rights “[did] not outweigh the government’s ‘interest in protecting [the minor child] from
abuse and from situations where abuse might occur.’ ”
Id. (citing Griffin v. Strong, 983 F.2d 1544, 1547 (10th
Cir. 1993)). Cf. Vigil v. S. Valley Acad., No. 06-2309, 247
F. App’x 982, 988 (10th Cir. 2007) (“a plaintiff claiming
a violation of the right to familial association must
show that the defendant had the specific intent to interfere with the family relationship”). Cf. Camuglia v.
City of Albuquerque, 448 F.3d 1214, 1222 (10th Cir.
2006) (noting that to properly allege a substantive due
process violation, “a plaintiff must do more than show
that the government actor intentionally or recklessly
caused injury to the plaintiff by abusing or misusing

App. 91
government power”) (quoting Moore v. Guthrie, 438
F.3d 1036, 1040 (10th Cir. 2006)).
Although I accept as true the well-pled allegations
of the First Amended Complaint, I do not find that
Plaintiffs have alleged facts that rise to the level of a
plausible substantive due process violation by Defendants Adame and Garza.13 Stated differently, the allegations in the First Amended Complaint do not plausibly
demonstrate that Defendants Adame and Garza on
May 6, 2009 intended to interfere with a protected relationship or that the Safety Plan they put in place on
that day constituted “an undue burden” on Plaintiffs’
right of familial association.
Plaintiffs’ allegations make clear that even if Defendants’ underlying assumptions may have been incorrect or misguided, they were acting in response to
the Ex Parte Orders issued by the District Court of
Johnson County. See First Amended Complaint at
¶ 132 (Defendants represented that “they were in possession of a court order from the State of Kansas”). Cf.
Cox v. Warwick Valley Cent. Sch. Dist., 654 F.3d 267,
275 (2d Cir. 2011) (to prove a due process violation of
the right to familial association, it is not enough to
13

In reaching this conclusion, the court expresses no views
as to the actions of other Defendants taken either before or after
May 6, 2009. Under § 1983, the court must consider to what extent, if at all, Defendants Adame and Garza personally participated in the alleged constitutional violations because to assert a
viable claim under § 1983, the plaintiff must plausibly allege that
the defendant’s own individual actions violated the Constitution.
See, e.g., Ashcroft v. Iqbal, 556 U.S. 662, 676 (2009).

App. 92
show that the government action was “incorrect or illadvised”). The allegations in the First Amended Complaint also demonstrate Defendants’ appreciation of
their limited role on May 6, 2009. See First Amended
Complaint at ¶¶ 143 and 161 (Defendants Adame and
Garza stated that “Plaintiffs and the other Doe children were in the custody of the State of Kansas” and
that “government agents from Kansas would arrive at
a unspecified time/day to take physical custody of the
Doe children from Dr. and Mrs. G”). The Safety Plan
put in place by Defendants Adame and Garza specifically directed Mrs. Doe to contact Ms. Gildner, the social worker in Kansas, the very next day (May 7, 2009),
presumably to discuss the children’s current and future situation. Cf. Cox, 654 F.3d at 275 (“Absent truly
extraordinary circumstances, a brief deprivation of
custody is insufficient to state a substantive due process custody claim.”); Silvan, 309 F. App’x at 223 (in
finding that the defendants had not violated plaintiffs’
familial association rights, the court noted “the relatively short duration” of the child’s placement with her
aunt and uncle and cited with favor Nicholson v. Scoppetta, 344 F.3d 154, 172 (2d Cir. 2003) which held that
“brief removals generally do not rise to the level of a
substantive due process violation, at least where the
purpose of the removal is to keep the child safe during
investigation and court confirmation of the basis for
removal”); Wofford v. Evans, No. 7:02CV00762, 2002
WL 32985799, at *7 (W.D. Va. Dec. 17, 2002) (holding that state action that affects a familial relationship only incidentally is not cognizable in a § 1983 due
process claim). There is absolutely no allegation that

App. 93
Defendant Adame or Defendant Garza had any role or
input in the subsequent decision by Kansas authorities
to separate the Doe children “from each other, from
their parents, from their grandparents, from the G’s
and from anyone known to them.”
Finally, in finding that Defendants Adame and
Garza must be dismissed from Plaintiffs’ Third Claim
on the basis of qualified immunity, I remain mindful of
the Tenth Circuit’s observations regarding the “difficult and essential” judgments that social workers must
make when they are confronted with allegations of
child abuse and are forced to make “on-the-spot judgments on the basis of limited and often conflicting
information.” Gomes, 451 F.3d at 1138. Cf. Hedger v.
Kramer, No. CIV-13-0654-HE, ___ F. Supp. 3d ___, 2016
WL 3945816, at *9 (W.D. Okl. Jul. 19, 2016) (heeding
“the Tenth Circuit’s admonition that ‘considerable deference should be given to the judgment of responsible
government officials in acting to protect children from
perceived imminent danger or abuse”), appeal pending.
“ ‘[I]f officers of reasonable competence could disagree’
about the lawfulness of the challenged conduct, then
‘[qualified] immunity should be recognized.” Gomes,
451 F.3d at 1136 (quoting Malley v. Briggs, 475 U.S.
335, 341 (1986)).
“Officials do not lose their qualified immunity
because of a mistaken, yet reasonable belief,
nor do officials lose their immunity because of
a reasonable mistake as to the legality of their
actions.” “[T]he purpose of the qualified immunity doctrine is to provide ample room for

App. 94
mistaken judgments and to protect ‘all but the
plainly incompetent or those who knowingly
violate the law.’ ”
Dupree v. City of Jacksonville, No.4:08CV00327 JMM,
2009 WL 1392578, at *6 (E.D. Ark. May 13, 2009) (internal citation omitted).
Accordingly, I recommend that Defendants Adame
and Garza be dismissed from Plaintiffs’ Third Claim
for Relief based upon the doctrine of qualified immunity.14

14

If the substantive claims against Defendants Adame and
Garza are dismissed pursuant to this Recommendation, those Defendants also must be dismissed under Plaintiffs’ Fourth Claim
which alleges they participated in a conspiracy to deprive Plaintiffs of their constitutional rights. See Fernandez v. N. Kern State
Prison, No. 1:16-cv-1612 AWI JLT, 2016 WL 7324708, at *6 (E.D.
Cal. Dec. 16, 2016) (holding that “[b]ecause Plaintiff ’s complaint
fails to allege any substantive claims . . . it follows that Plaintiff ’s
claim for civil conspiracy must be dismissed”). Cf. Aleynikov v.
McSwain, No. 15-1170 (KM), 2016 WL 3398581, at *19 (D. N.J.
Jun. 15, 2016) (citing the “established rule . . . that a cause of action for civil conspiracy requires a separate underlying tort as a
predicate for liability;” because the court found no violation of the
plaintiff ’s constitutional rights, the companion conspiracy claim
was dismissed), clarified on other issues, 2016 WL 5340513 (D.
N.J. Sep. 22, 2016); Everling v. Ragains, No. 1:14-cv-00024-TWPDML, 2015 WL 1319707, at *5 (S.D. Ind. Mar. 23, 2015) (holding
that in the absence of an underlying substantive claim, plaintiff ’s
conspiracy cause of action must be dismissed; “[b]ecause all the
federal claims under 42 U.S.C. § 1983 are barred by prosecutorial
immunity, there is no underlying cause of action on which to base
a conspiracy claim”). Also, because this court is recommending
Defendants Adame’s and Garza’s dismissal based upon qualified
immunity, there is no need to address their statute of limitations
affirmative defense.

App. 95
C. The Claim Against Defendant Douglas County
The Sixth Claim in the First Amended Complaint
asserts that “[u]nder 42 U.S.C. § 1983, Douglas County
is liable for causing Plaintiffs to be seized and deprived
of their liberty in violation of the 4th Amendment of
the United States Constitution.” Plaintiffs allege in
conclusory fashion that “Douglas County had adopted
an unwritten policy, custom, or practice by which it authorized county sheriff ’s personnel to seize Plaintiffs
based on out-of-state ex parte court orders in violation
of the United States Constitution and Colorado law.”
See First Amended Complaint, at ¶ 216.
This claim cannot survive if Defendants Adame
and Garza are dismissed from this action. It is axiomatic that a local government body cannot be liable for
damages if the plaintiff suffered no constitutional injury at the hands of a government employee. See, e.g.,
City of Los Angeles v. Heller, 475 U.S. 796, 799 (1986)
(per curiam); Estate of Larsen ex rel. Sturdivan v. Murr,
511 F.3d 1255, 1264 (10th Cir. 2008). Cf. Maco v. Baldwin Union Free Sch. Dist., No. CV 15-3958, 2016 WL
4028274, at *6 (E.D.N.Y. Jul. 26, 2016) (“[W]here there
is no underlying violation of a plaintiff ’s constitutional
rights, any claim for municipal liability necessarily
fails as well.”); Bonilla, v. City of York, No. 1:14-CV2238, 2016 WL 3165619, at *12 (M.D. Pa. Jun. 7, 2016)
(“[T]here is no municipal liability under Monell where
there is no underlying violation of a constitutional right
by the individual officers.”), appeal pending; Caputo v.
Rio Ranche Police Dep’t, No. CIV 05-321-JB/DJS, 2006
WL 4063020, at *9 (D.N.M. Jun. 30, 2006) (while the

App. 96
acts of a single employee may sometimes give rise to a
Monell claim, “such a Monell claim still requires that a
constitutional violation occurred”).
II.

The Kansas Defendants’ Challenge to Personal
Jurisdiction

Where a defendant is moving to dismiss under
Fed. R. Civ. P. 12(b)(2) for lack of personal jurisdiction
and under Fed. R. Civ. P. 12(b)(6) for failure to state a
cognizable claim for relief, the court should first address the challenge to personal jurisdiction. “The question of personal jurisdiction must be addressed before
a court can reach the merits of a case, because ‘a court
without jurisdiction over the parties cannot render a
valid judgment.’ ” Doe v. May, No. 14-cv-01740-WJMNYW, 2015 WL 8519519, at *3 (D. Colo. Nov. 16, 2015)
(quoting Omi Holdings, Inc. v. Royal Ins. Co. of Canada,
149 F.3d 1086, 1091 (10th Cir. 1998)), rec. adopted,
2015 WL 8479808 (D. Colo. Dec. 10, 2015).
In every action, the plaintiff bears the burden of
establishing personal jurisdiction over a non-resident
defendant. See Wenz v. Memery Crystal, 55 F.3d 1503,
1505 (10th Cir. 1995). “In the preliminary stages of litigation, Plaintiff ’s burden is light.” Walker v. Wegener,
No. 11-CV-3238-PAB-KMT, 2012 WL 1020673, at *3 (D.
Colo. Mar. 2, 2012) (citing Wenz, 55 F.3d at 1505), rec.
adopted, 2012 WL 1020954 (D. Colo. Mar. 26, 2012).
“Where, as here, there has been no evidentiary hearing, and the motion to dismiss for lack of personal jurisdiction is decided on the basis of affidavits and other

App. 97
materials, Plaintiff[ ] need only make a prima facie
showing that jurisdiction exists.” Id. at *3 (internal citation omitted). See also Pytlik v. Prof ’l Res., Ltd., 887
F.2d 1371, 1376 (10th Cir. 1989) (Plaintiff “has the duty
to support jurisdictional allegations in a complaint by
competent proof of the supporting facts if the jurisdictional allegations are challenged by an appropriate
pleading”). This court must resolve any factual disputes in Plaintiffs’ favor. See Beyer v. Camex Equip.
Sales & Rentals, Inc., No. 10-CV-01580-WJM-MJW,
2011 WL 2670588, at *2 (D. Colo. July 8, 2011) (“Any
factual conflicts must be resolved in the plaintiff ’s favor.”), aff ’d, 465 F. App’x 817 (10th Cir. 2012). “However, ‘only the well pled facts of plaintiff ’s complaint,
as distinguished from mere conclusory allegations,
must be accepted as true.” Wise v. Lindamood, 89
F. Supp. 2d 1187, 1189 (D. Colo. 1999). The court also
should accept as true those facts presented in defendant’s affidavits or exhibits that remain unrefuted by
plaintiff. See Glass v. Kemper Corp., 930 F. Supp. 332,
337 (N.D. Ill. 1996).
Here, both the Kansas Defendants and Plaintiffs
have attached exhibits to their motion and response
brief, respectively. “A court may consider material outside of the pleadings in ruling on a motion to dismiss
for lack of . . . personal jurisdiction,” without converting “the motion into one for summary judgment; ‘the
plain language of Rule 12(b) permits only a 12(b)(6)
motion to be converted into a motion for summary
judgment.’ ” 1-800-Contacts, Inv. v. Mem’l Eye, PA, No.
1:08-CV-983 TS, 2009 WL 1586654, at *1 n.1 (D. Utah,

App. 98
Jun. 4, 2009). Cf. Rich Food Servs., Inc. v. Rich Plan
Corp., No.5:99-CV-677-BR, 2001 WL 36210598, at *9
n.2 (E.D.N.C. May 12, 2001) (“Rule 12(b) does not impose a restriction on [a] trial court in considering matters outside the pleadings in ruling on a motion to
dismiss pursuant to Rule 12(b)(2) for lack of personal
jurisdiction”); Sunwest Silver, Inc. v. Int’l Connection,
Inc. 4 F. Supp. 2d 1284, 1285 (D. N.M. 1998) (“The submission of affidavits in connection with a motion to dismiss for lack of personal jurisdiction does not convert
the motion into one for summary judgment, thus, the
court examines this jurisdictional issue pursuant to
the standards applicable to a Rule 12(b)(2) motion.”).
“To obtain personal jurisdiction over a nonresident
defendant in a diversity action, a plaintiff must show
both that jurisdiction is proper under the laws of the
forum state and that the exercise of jurisdiction would
not offend due process.” Intercon, Inc. v. Bell Atl. Internet Sols., 205 F.3d 1244, 1247 (10th Cir. 2000) (citation
omitted). Because Colorado’s long-arm statute permits
the exercise of any jurisdiction that is consistent with
the United States Constitution, the personal jurisdiction inquiry under Colorado law “collapses into the single due process inquiry.” Id. at 1247 (citation omitted).
See also Beyer, 2011 WL 2670588, at *3 (The court
“need only address the constitutional question of
whether the exercise of personal jurisdiction over [Defendants] comports with due process.”).
“The Due Process Clause permits the exercise of
personal jurisdiction over a nonresident defendant so
long as there exist minimum contacts between the

App. 99
defendant and the forum State.” Intercon, 205 F.3d at
1247 (internal quotation marks and citation omitted).
The minimum contacts requirement protects a defendant from “being subject to the binding judgment of a
forum with which [it] has established no meaningful
contacts, ties, or relations.” Burger King Corp. v. Rudzewicz, 471 U.S. 462, 471-72 (1985) (internal quotation
marks and citation omitted). The defendant must have
“fair warning that a particular activity may subject [it]
to the jurisdiction of a foreign sovereign.” Id. at 472.
“[T]he question of whether a non-resident defendant
has the requisite minimum contacts with the forum
state to establish in personam jurisdiction must be decided on the particular facts of each case.” Benton v.
Cameco Corp., 375 F.3d 1070, 1076 (10th Cir. 2004) (internal quotation marks omitted).
In this case, Plaintiffs are asserting the court has
specific personal jurisdiction over the Kansas Defendants. “The inquiry whether a forum State may assert
specific jurisdiction over a nonresident defendant focuses on the relationship among the defendant, the forum, and the litigation.” Walden v. Fiore, 571 U.S. ___,
134 S. Ct. 1115, 1121 (2014). As the Supreme Court explained in Walden, the
“minimum contacts” analysis looks to the defendant’s contacts with the forum State itself,
not the defendant’s contacts with persons who
reside there. . . . But the plaintiff cannot be
the only link between the defendant and the
forum. Rather, it is the defendant’s conduct
that must form the necessary connection with

App. 100
the forum State that is the basis for its jurisdiction over him.
Id. at 1122. Cf. Giduck v. Niblett, No. 13CA0775, 2014
WL 2986670, at *5 (Colo. App. Jul. 3, 2014) (“[i]n
properly viewing the focus of the minimum contacts
analysis, . . . it is the defendants, not plaintiffs or third
parties, who must create contacts with the forum
state. . . .”), cert. dismissed, Aug. 28, 2015.
“[A] court may, consistent with due process, assert
specific jurisdiction over a nonresident defendant if the
defendant has purposefully directed his activities at
residents of the forum, and the litigation results from
alleged injuries that arise out of or relate to those activities.” Intercon, 205 F.3d at 1247 (citation omitted).
“[P]urposeful direction exists when there is ‘an intentional action . . . expressly aimed at the forum state . . .
with [the] knowledge that the brunt of the injury
would be felt in the forum state,” and the “plaintiff ’s
injuries must ‘arise out of [the] defendant’s forumrelated activities.” Anzures v. Flagship Restaurant
Group, 819 F.3d 1277, 1280 (10th Cir. 2016) (quoting
Dudnikov v. Chalk & Vermillion Fine Arts, Inc., 514
F.3d 1063, 1071-72 (10th Cir. 2008)). “This purposeful
availment requirement ensures that a defendant will
not be haled into a jurisdiction solely as a result of random, fortuitous, or attenuated contacts, or of the unilateral activity of another party or a third person.”
Rambo v. Am. S. Ins. Co., 839 F.2d 1415, 1419 (10th Cir.
1988) (quoting Burger King, 471 U.S. at 474-75). Cf.
New Frontier Media, Inc. v. Freeman, 85 P.3d 611, 614
(Colo. App. 2003) (contacts that exist with a state due

App. 101
to a plaintiff ’s unilateral acts have been held insufficient to establish personal jurisdiction).
For this court to assert personal jurisdiction over
the Kansas Defendants, there must be more than
“mere injury to a forum resident.” Walden, 134 S. Ct.
at 1125. Indeed, the Tenth Circuit has acknowledged
that “personal jurisdiction cannot be based on a [defendant’s] interaction with a plaintiff known to bear a
strong connection to the forum state.” Rockwood Select
Asset Fund XI(6)-1, LLC v. Devine, Millimet & Branch,
750 F.3d 1178, 1180 (10th Cir. 2014) (citing Walden,
134 S. Ct. at 1122-26)). In this case, it seems clear that
on May 6, 2009, Plaintiffs did not qualify as residents
of Colorado or have a strong connection with Colorado.15 In reaching that conclusion, I find instructive
the Colorado Supreme Court’s analysis in Brandt v.
Brandt, 268 P.3d 406 (Colo. 2012). Although that case
arose under the Uniform Child Custody Jurisdiction
and Enforcement Act and considered when a nonissuing jurisdiction could modify an out-of-state custody order, the Colorado Supreme Court held that a
determination of where a parent and child “presently
reside” for purposes of a residency determination must
be based on a “totality of the circumstances determination.” Id. at 415. Factors that should be weighed include:

15

The First Amended Complaint alleges that at all relevant
times in 2009, Plaintiffs, as well as their parents, and their siblings, were residents of the State of Kansas and resided in Johnson County, Kansas. See First Amended Complaint at ¶ 16.

App. 102
the length and reasons for the parents’ and
the child’s absence from the issuing state;
their intent in departing from the state and
returning to it; . . . where they maintain a
home, car, driver’s license, job, professional licensure, and voting registration; where they
pay state taxes; the issuing state’s determination of residency based on the facts and the
issuing state’s law; and other circumstances
demonstrated by evidence in the case.
Id. This court has not been provided with any evidence
that would suggest Plaintiffs qualified as “residents” of
Colorado on May 6, 2009. With the recommendation
to dismiss the claims against Defendants Douglas
County, Adame, and Garza, the remaining parties to
this action were all Kansas residents at the time of the
relevant conduct in 2009.
Moreover, I do not find that the Kansas Defendants’ very brief contact with Colorado officials is
sufficient to demonstrate that these Defendants “purposefully directed” their activities at this forum with
“[the] knowledge that the brunt of the injury would be
felt in the forum state.” I also do not find that any violation of Plaintiffs’ constitutional rights arose “out of
[the] defendant’s forum-related activities.”
The First Amended Complaint alleges that on
April 20, 2009, Defendant Gildner allegedly enlisted
the assistance of Assistant District Attorney Jaclynn
J.B. Moore, “who filed ten Child-in Need-of-Care
(“CINC”) petitions in the District Court for Johnson
County, Kansas.” See First Amended Complaint at

App. 103
¶ 85. A “non-emergency hearing” on those petitions
was set for May 11, 2009 in the District Court for Johnson County. Id. at ¶ 92. Thereafter, on May 4, 2009, Assistant District Attorney Donald W. Hymer, Jr. moved
for issuance of Ex Parte Orders of Protective Custody
Pursuant to K.S.A 38-2242 in the District Court of
Johnson County, Kansas. Id. at ¶ 111. See also Exhibit
A (doc. #64-1) attached to Motion to Dismiss. Cf. Fitzgerald v. Zakheim & Lavrar, P.A, 90 F. Supp. 3d 867,
873 (D. Minn. Feb. 11, 2015) (holding that the defendant law firm did not “purposely direct” its actions at a
Minnesota resident when it obtained from a Florida
state court a writ of garnishment aimed at an individual the defendant believed resided in Florida). Plaintiffs contend that after Dr. and Mrs. G returned the
Doe children to Kansas on May 7, 2009, “SRS/DCF [the
Kansas Defendants’ employer] . . . proceeded arbitrarily to separate them from each other, from their parents, from their grandparents, from the G’s and from
anyone known to them.” The “purposeful activities”
which form the basis for the instant action all took
place in Kansas and the consequences of the Kansas
Defendants’ conduct also were felt in that state. Accordingly, I do not find that the Kansas Defendants had
sufficient contacts with Colorado to permit this court
to exercise specific personal jurisdiction over those individuals.
“Even if defendant’s actions created sufficient
minimum contacts,” the court “must still consider
whether the exercise of personal jurisdiction over defendant would offend traditional notions of fair play

App. 104
and substantial justice.” Intercon, 205 F.3d at 1247 (internal quotation marks and citation omitted). “This inquiry requires a determination of whether the district
court’s exercise of jurisdiction over defendant is reasonable in light of the circumstances surrounding the
case.” Id. The court considers the following factors in
deciding whether the exercise of jurisdiction is reasonable: “(1) the burden on the defendant, (2) the forum
state’s interest in resolving the dispute, (3) the plaintiff ’s interest in receiving convenient and effective relief, (4) the interstate judicial system’s interest in
obtaining the most efficient resolution of controversies,
and (5) the shared interest of the several states in furthering fundamental substantive social policies.” Id. at
1249.
In assessing the reasonableness of jurisdiction, we also take into account the strength of
a defendant’s minimum contacts. [T]he reasonableness prong of the due process inquiry
evokes a sliding scale: the weaker the plaintiff ’s showing on minimum contacts, the less
a defendant need show in terms of unreasonableness to defeat jurisdiction.
Emp’rs Mut. Cas. Co. v. Bartile Roofs, Inc., 618 F.3d
1153, 1161-62 (10th Cir. 2010) (internal citations omitted). The Supreme Court has cautioned that “jurisdictional rules may not be employed in such a way as to
make litigation ‘so gravely difficult and inconvenient’
that a party unfairly is at a ‘severe disadvantage’ in
comparison to his opponent.” Burger King, 471 U.S. at
478.

App. 105
On balance, I am not convinced that exercising
personal jurisdiction over the Kansas Defendants in
Colorado would comport with traditional notions of
fair play and substantial justice. Colorado does not appear to be the most efficient place to litigate the dispute, and certainly does not have a greater interest in
protecting the interests of the children in this case
than Kansas. To the contrary, this action arises out of
orders issued by the District Court for Johnson County,
Kansas. I have no reason to believe that proceeding
against the Kansas Defendants in that forum would
impose undue burdens on Plaintiffs or impair their
ability to resolve their claims on the merits. Basic notions of due process mandate that this case proceed, if
at all, in the District of Kansas.
In lieu of dismissing the claims against the Kansas Defendants, the court may exercise its discretion
and transfer the remaining claims and parties to the
District of Kansas pursuant to 28 U.S.C. § 1631. That
statute provides that if a court finds that it lacks personal jurisdiction, it “shall, if it is in the interests of
justice, transfer such action . . . to any other such court
in which the action . . . could have been brought at the
time it was filed.” Cf. Doe v. May, 2015 WL 8519519, at
*5; Reynolds v. Henderson & Lyman, No. 13-cv-03283LTB, 2014 WL 5262174, at *4-5 (D. Colo. Oct. 14, 2014).
It would appear that Plaintiffs could have brought
their claims against the Kansas Defendants originally
in that forum. I further find that transferring this action to the District of Kansas would further the interests of justice, particularly if Plaintiffs’ claims might

App. 106
be time-barred if filed anew in that jurisdiction. At
this point, I cannot say with certainty that Plaintiffs’
claims against the Kansas Defendants are “unlikely”
to have merit, just as I will not presume that Plaintiffs
are pursuing their claims in bad faith. On balance, I
recommend that the action and the remaining claims
against Defendants Gildner, Webb and Abney be transferred to the District of Kansas.16
CONCLUSION
Accordingly, for the reasons set forth above, this
court RECOMMENDS that the Motion to Dismiss
Amended Complaint (doc. #57) filed by Defendants
Lesa Adame, Carl Garza, and Douglas County be
GRANTED and that the claims against those defendants be dismissed with prejudice. I further RECOMMEND that Defendants Monica Gildner, Angela Webb,
and Tina Abney’s Motion to Dismiss First Amended
Complaint with Memorandum in Support or, in the alternative, Motion for Summary Judgment (doc. #65) be
DENIED WITHOUT PREJUDICE, and that this case
and the claims against Defendants Gildner, Webb, and
Abney be transferred to the United States District
Court for the District of Kansas pursuant to 28 U.S.C.
§ 1631.

16

In view of this Recommendation, the court need not address the substantive arguments advanced in the Kansas Defendants’ motion to dismiss. Those arguments should be resolved by
the assigned judicial officer in the District of Kansas.

App. 107
DATED this 27th day of January, 2017.
BY THE COURT:
s/ Craig B. Shaffer
United States
Magistrate Judge

App. 108
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
-----------------------------------------------------------------------

N.E.L., et al.,
Plaintiffs - Appellants,
v.

No. 18-3059

MONICA GILDNER, et al.,
Defendants - Appellees.
-----------------------------------------------------------------------

ORDER
-----------------------------------------------------------------------

(Filed Aug. 20, 2019)
Before BACHARACH, PHILLIPS, and EID, Circuit
Judges.
-----------------------------------------------------------------------

Appellants’ petition for rehearing is denied.
The petition for rehearing en banc was transmitted to all of the judges of the court who are in regular
active service. As no member of the panel and no judge
in regular active service on the court requested that
the court be polled, that petition is also denied.
Entered for the Court
/s/ Elisabeth A. Shumaker
ELISABETH A. SHUMAKER,
Clerk

